i%

APPENDIX A
19-2738
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

Barbara Andersen
Plaintiff-Appellant
v.
Village of Glenview, Rick Gimbel,
Morris Kharasch, Jacob Popkov
Defendants-Appellees

)
)
)

Appeal from
Case l:17-cv-05761
Judge Tharp presiding

)
)
)

ORDER
This case is one stop in a long and lamentable ordeal stemming from the
former
acrimonious
divorce
of
Barbara Andersen and
her
husband. Andersen brought this lawsuit after her ex-husband's complaints of
harassment resulted in criminal charges, a night in jail, and the temporary loss of
her children. The case proceeded in the district court and first was narrowed by
motions to dismiss before the court eventually entered summary judgment in favor
of the defendants on all remaining claims. Andersen appeals several of the district
court's orders. Finding no error in any of them, we affirm.

I
Barbara Andersen [**2] was married to Rick Gimbel, an emergency room
physician, and they have two children. When the union came to an end in 2009, the
couple entered into a joint custody agreement. The separation was not amicable and
ignited hostilities that would continue for years, including accusations of
harassment from both sides.
Tensions escalated in 2015 when a complaint that Gimbel submitted to
the Glenview Police Department landed Andersen in jail. Gimbel reported that his
former spouse had been harassing him, including by leaving angry voicemails.
Detective Jacob Popkov was assigned to the case, and he was the one to make the
arrest. Andersen spent the night in jail before being released on bond with the
condition that she submit to a psychological evaluation. The court also ordered that
the children remain with their father, though Andersen's custody was later
restored.

A1

A grand jury charged Andersen with three felonies—two counts of stalking and
another of telephone harassment with the intent to kill. But she was never
convicted. The state later chose to drop the stalking counts and reduce the
harassment charge to a misdemeanor, of which she was acquitted after a bench
trial. Andersen then brought [**3] a lawsuit of her own.
Andersen sued Gimbel, the Village of Glenview, and Detective Popkov. The factual
allegations painted the disturbing picture of an ex-spouse who worked with a biased
police officer to trump up charges against his children's mother that would put her
behind bars so that he could whisk the kids away to a football game.
[*627] The complaint was based on many different legal theories related
to Andersen's arrest and prosecution. She claimed that, among other things,
Detective Popkov violated her First, Fourth, Fifth, Sixth, and Fourteenth
Amendment rights and committed the Illinois common law tort of malicious
prosecution; Popkov and Gimbel conspired in the deprivation of her rights and in
malicious prosecution; and all the defendants intentionally inflicted emotional
distress upon her. Andersen also contended that Glenview was liable under Monell
v. Department of Social Services, 436 U.S. 658, 98 S. Ct. 2018, 56 L. Ed. 2d 611
(1978).
The parties proceeded to vigorously litigate the case. Andersen unsuccessfully
sought to disqualify attorneys from the Sotos Law Firm from serving as counsel
to Glenview and Detective Popkov. The defendants moved to dismiss the complaint,
resulting in all claims against Glenview being dismissed and a narrowing of the
Popkov
In
claims
against
Detective
and
Gimbel.
discovery, Andersen [**4] requested that Glenview be compelled to disclose emails
between the Village and its counsel, but the district court denied the request,
finding the documents to be privileged. Andersen's case never made its way to a
jury—the last remaining defendants received summary judgment in their
favor. Andersen now appeals, raising issues from all these orders.

II
A
We begin with the motions to dismiss, of which our review is de novo. See Hughes v.
Sw. Airlines Co., 961 F.3d 986, 987-88 (7th Cir. 2020). HN1 In doing so, we accept
the complaint's factual allegations as true and draw all reasonable inferences
in Andersen's favor. See id.
Andersen contends that the district court was wrong to dismiss her claim that
Detective Popkov falsely arrested her in violation of the Fourth Amendment. That
claim required her to plead that he did not have probable cause for the arrest.
SeeNeita v. City of Chi., 830 F.3d 494, 497 (7th Cir. 2016). The district court
granted dismissal because it concluded that Andersen's allegations did not
demonstrate a lack of probable cause. We agree.

A2

HN2 For Detective Popkov to have had probable cause for the arrest, he must have
known facts and circumstances that would be enough for a reasonable person to
believe that she had committed an offense. See id. He justified the arrest as one for
telephone harassment, defined [**5] under Illinois law as "[m]aking a telephone
call, whether or not conversation ensues, with intent to abuse, threaten, or harass
any person at the called number." 720 ILCS 5/26.5-2. Probable cause for that
offense will bar the false arrest claim, even though Andersen was later charged with
other crimes. See Holmes v. Vill. of Hoffman Estates, 511 F.3d 673, 682 (7th Cir.
2007) CHN3 "[P]robable cause to believe that a person has committed any crime will
preclude a false arrest claim, even if the person was arrested on additional or
different charges for which there was no probable cause.").
Andersen contends that the district court erred in considering the recordings of her
voicemails and interrogation, which the Glenview defendants attached to their
motion to dismiss. HN4 Ordinarily, district courts are confined to the pleadings on
such a motion, but courts may consider outside exhibits that are central to the
plaintiffs claim and referred to in the complaint, even if supplied by the defendants.
See Venture Assocs. Corp. v. Zenith Data Sys. Corp., 987 F.2d 429, 431 (7th Cir.
1993). Those were the grounds that the court found to apply here, having
concluded [*628] that the recordings were central to Andersen's claims and there
was no dispute about their authenticity. But the court took care to point out that
even without taking into account the content of the recordings, [**6] the
complaint's allegations failed to show a lack of probable cause.
Andersen's complaint alleged that Gimbel filed a police report stating that he was
being harassed through voicemail messages, submitted recordings of them (though
the complaint does not specifically describe what they contained), and forwarded a
log of his incoming calls. See Woods v. City of Chi., 234 F.3d 979, 996 (7th Cir. 2000)
("[W]e have consistently held that an identification or a report from a single,
credible victim or eyewitness can provide the basis for probable cause."). It also
alleged that Andersen called Gimbel's boss (which he reported to the police) and
"several" other people in an angered attempt to stop what she perceived as Gimbel
harassing her, which would have been reflected on the logs and recordings that
Detective Popkov received. Taken altogether, these alleged facts positioned Popkov
(or, more generally, any reasonable police officer) to believe that Andersen had
engaged in telephone harassment. In short, Andersen's allegations could not
support a claim that Detective Popkov lacked probable cause to arrest her.
The district court was right to dismiss the other claims that it did too. No
allegations plausibly linked any statements by Detective Popkov [**7] to the bond
court's decision to remove Andersen's children from her care. The state law
malicious prosecution claim failed because "the chain of causation [was] broken by
[the] indictment," and the complaint did not sufficiently allege any post-arrest
actions by Detective Popkov that influenced the prosecutor's decision to
indict. Colbert v. City of Chi., 851 F.3d 649, 655 (7th Cir. 2017) (emphasis omitted).
And our decision in Bridewell v. Eberle, 730 F.3d 672, 678 (7th Cir. 2013) holds

A3

that Andersen's intentional infliction of emotional distress claim against Detective
Popkov began to accrue on the date she was arrested, rendering it time barred.
Nor could Andersen's Monell claim against the Village of Glenview survive a motion
to dismiss. HN5 A municipality may be sued only for constitutional violations that
it caused through one of its policies or by someone with final policymaking
authority. See Monell v. Dep't of Soc. Servs. of New York, 436 U.S. 658, 690, 98 S.
Ct. 2018, 56 L. Ed. 2d 611 (1978). Andersen sought to hold Glenview responsible for
obstructing her access to exculpatory evidence, an effort she alleges was
accomplished by a Village attorney and outside counsel. The district court correctly
concluded that these allegations do not plausibly establish that either party had
final policymaking authority for Glenview or that anyone who did was involved.
That defeats the claim.

B
We turn [**8] next to the district court's grant of summary judgment in favor of the
defendants on the claims that survived the motions to dismiss. HN6 Summary
judgment is appropriate when "there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of law." FED. R. CIV. P. 56(a).
We review the decision de novo and draw all justifiable inferences in Andersen's
favor. See Flexible Steel Lacing Co. v. Conveyor Accessories, Inc., 955 F.3d 632, 643
(7th Cir. 2020).
First was Andersen's claim that Detective Popkov unconstitutionally prolonged her
detention. HN7 When the delay between arrest and presentment to a judge is less
than 48 hours, we presume it to be reasonable. See County of Riverside v.
McLaughlin, 500 U.S. 44, 56-57, 111 S. Ct. 1661, [*629] 114 L. Ed. 2d 49
(1991). Andersen was burdened with the task of rebutting that presumption
because she was detained for just over 24 hours. See Portis v. City of Chi., 613 F.3d
702, 703-04 (7th Cir. 2010). The district court concluded that Andersen had come up
short on evidence that Detective Popkov unreasonably delayed her detention.
In challenging that determination, Andersen points to issues with Detective
Popkov's credibility, including that he changed his justification for holding her
overnight. HN8 But the Fourth Amendment's reasonableness analysis is objective.
See Whren v. United States, 517 U.S. 806, 814, 116 S. Ct. 1769, 135 L. Ed. 2d 89
(1996); United States v. Bullock, 632 F.3d 1004, 1012 (7th Cir. 2011). Properly
placing credibility aside, we agree with the district court that Andersen's evidence
did not rebut the presumption that her detention [**9] was reasonable.
And with no underlying constitutional violation, there could be no conspiracy
between Gimbel and Popkov to violate her Fourth Amendment rights. See Green v.
Howser, 942 F.3d 772, 778 (7th Cir. 2019).
Last was Andersen's intentional infliction of emotional distress claim against
Gimbel. HN9 The bar is high—the conduct must be "truly extreme and
outrageous." Feltmeier v. Feltmeier, 207 Ill. 2d 263, 798 N.E.2d 75, 80, 278 Ill. Dec.

A4

228 (Ill. 2003). The district court reasoned that although pursuing baseless criminal
charges against someone could meet that demanding standard, Gimbel's allegations
were not unfounded. Indeed, Illinois courts have previously found the act of filing
criminal charges to fall below the required level of outrageousness.
See, e.g., Schiller v. Mitchell, 357 Ill. App. 3d 435, 828 N.E.2d 323, 335, 293 Ill. Dec.
353 (Ill. App. Ct. 2005); Adams v. Sussman & Hertzberg, Ltd., 292 Ill. App. 3d 30,
684 N.E.2d 935, 943, 225 Ill. Dec. 944 (Ill. App. Ct. 1997). We cannot say that the
district court committed any error in concluding that no reasonable jury could find
Gimbel's decision to lodge a report with the police after feeling threatened to be
"intolerable in a civilized community." Feltmeier, 798 N.E.2d at 83.

C
Our final stop is Andersen's motion to disqualify attorneys from the Sotos Law Firm
from serving as counsel to Glenview and Detective Popkov in this civil lawsuit
because they had been involved in her criminal prosecution. HN10 The district
court denied the motion, and we review that decision only for an abuse of discretion.
See United States v. Bender, 539 F.3d 449, 454 (7th Cir. 2008).
HN11 Disqualification is [**10] a "drastic measure" that should not be imposed
lightly. Owen v. Wangerin, 985 F.2d 312, 317 (7th Cir. 1993). The district court
rightfully found that the attorneys' acts in the criminal case—attending the bench
trial, speaking with Glenview employees, and representing Glenview in a motion to
quash subpoenas—had no relevance to the merits of the civil case. And by no means
were the attorneys necessary witnesses. There was no need for disqualification.

Ill
Andersen had many claims below and raises numerous arguments on appeal, and
we have carefully considered them all. But after thoroughly reviewing the district
court's orders, we are confident that there was no error. For that reason, we
AFFIRM.

Andersen v. Vill. of Glenview, 821 F. App'x 625 (7th Cir. 2020)

A5

APPENDIX B
IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
)
Barbara Andersen
)
Case l:17-cv-05761
Plaintiff
)
v.
)
Village of Glenview, Rick Gimbel,
)
Morris Kharasch, Jacob Popkov

MEMORANDUM OPINION AND ORDER
This opinion addresses the last remaining claims arising from an unfortunate
chapter in a long-running saga of divorce and ensuing battle for custody of the
couple's children. Plaintiff Barbara Andersen brought suit pursuant to 42 U.S.C. §
1983 asserting various claims and theories of liability premised on an alleged
scheme involving her ex-husband, defendant Rick Gimbel, and defendant Detective
Jacob
Popkov
of
the Glenview Police
Department [*2]
("GPD")
to
have Andersen arrested and detained overnight to facilitate Gimbel's efforts to
obtain custody of the couple's children. After most of Andersen's claims were
dismissed for failure to state a claim, both defendants moved for summary
judgment on the remaining claims pertaining to her overnight detention after being
arrested on charges harassment and stalking charges. While Andersen's pique at
being detained on criminal charges—all of which were unsuccessful—brought at the
instigation of her former husband is quite understandable, she has failed to adduce
sufficient evidence to sustain a jury verdict that her overnight detention on those
charges was unconstitutional or that Gimbel's conduct was extreme and outrageous.
Accordingly, the defendants' summary judgment motions are granted.

BACKGROUND
For purposes of this motion, the story begins on Tuesday, September 8, 2015 when
Detective Popkov was assigned to investigate a complaint made by Rick Gimbel
alleging that his ex-wife Barbara Andersen had made a series of threatening phone
calls to Gimbel and others. Popkov's Statement of Facts ("SOF") f 7, ECF No. 216.
It is undisputed that Popkov and another officer interviewed Gimbel [*3] on the
night of September 8, id. 11, and that Popkov spoke with various other parties
referenced in Gimbel's complaint the next day, September 9. Id. ^ 13. On the
evening of September 9, Gimbel sent an e-mail to Popkov stating that it was
"[gloing to be interesting on Friday" if Andersen were not arrested. Id. ^ 29.
According to Popkov, he did not know what Gimbel meant and disregarded the

A6

statement; according to Andersen, Gimbel and Popkov had reached an
understanding to have Andersen arrested prior to September 11, 2015 so that
Gimbel could take his minor children (as to whom Andersen then had custody) to a
football game over Andersen's objection. Andersen has not, however, adduced
evidence of any response by Popkov to Gimbel's message or, indeed, any evidence
that Popkov knew anything about a football game.
On 1:00 p.m. on Thursday, September 10, 2015, Detective Popkov
arrested Andersen at her home for misdemeanor telephone harassment as defined
by 720 ILCS 5/26.5-2. This Court concluded in its prior ruling on the defendants'
motions to dismiss that Popkov had probable cause for this warrantless
arrest. See Andersen v. Vill. of Glenview, 17-CV-05761, 2018 U.S. Dist. LEXIS
201642, 2018 WL 6192171, at *1 (N.D. Ill. Nov. 28, 2018). Popkov then
took Andersen to the police station [*4] and by 1:30 p.m. began interviewing her.
The interview lasted for approximately an hour and ten minutes, id. 17, during
which time Popkov told Andersen that she would be detained overnight. Id. ^ 18.
Popkov also told Andersen that she would likely face felony stalking charges in
addition to the misdemeanor telephone harassment charges, but that under Illinois
law felony charges had to be approved by the State's Attorney. See 725 ILCS 5/1112(a) ("All prosecutions of felonies shall be by information or indictment" while all
others may be by information, indictment, or complaint); Brown v. City of Chicago,
713 F. Supp. 250, 251 (N.D. Ill. 1989) (Illinois Felony Review process requires the
State's Attorney to review felony charges prior to probable cause hearing).
After the interview, Popkov reviewed additional materials provided by Gimbel and
at some point called the Cook County State's Attorney. Andersen maintains that
Popkov "purposefully wasted considerable time" by waiting until late that afternoon
to initiate the felony review process. Pl.'s Resp. Br. 11, ECF No. 227. At 4:45 p.m.,
Felony Review Assistant State's Attorney Joseph Carlson arrived at the police
department, spoke with Popkov, interviewed witnesses, and reviewed the case
materials. Popkov's SOF f [*5] 20. At approximately 8:00 p.m., Carlson approved a
felony stalking charge. Andersen was then processed and placed in a holding cell
overnight. At 7:35 a.m. the next morning, she was taken to court. Finally, at 1:30
p.m., a little more than 24 hours after her initial arrest, she was released on her
own recognizance with various conditions of release imposed. Id.
23, 24. The
charges against her were ultimately resolved in her favor: the felony stalking
charges (2 counts) were nolle prossed and Andersen was acquitted of the
misdemeanor telephone harassment charge.
Andersen subsequently filed a 12-count complaint alleging, among other things,
that Popkov conspired with Gimbel to arrest, detain, and prosecute her on trumped
up felony stalking charges as part of Gimbel's ploy to win custody of their minor
children in violation of the Fourth Amendment. The Court dismissed much of the
complaint pursuant to Federal Rule of Civil Procedure 12(b)(6) but concluded
that Andersen had adequately stated a claim against Popkov for unconstitutionally
prolonging her post-arrest detention and against Popkov and Gimbel for conspiring
together to do so. The Court also concluded that Andersen stated a claim against
A7

Gimbel for state law intentional infliction [*6] of emotional distress ("IIED") arising
out of his alleged campaign to have Andersen arrested and prosecuted. Shortly
thereafter, Popkov and Gimbel each moved for summary judgment.

DISCUSSION
I. Motion to Strike
Before addressing the merits of the summary judgment motions, the Court turns
briefly to Andersen's motion to strike various exhibits submitted by the defendants.
Specifically, Andersen seeks to exclude 1) video recordings of Andersen at
the Glenview Police Department, 2) an e-mail and transcripts from third-party
witnesses offered to support Gimbel's contention that his complaints
about Andersen were made in good faith, and 3) audio recordings of the voice
messages left by Anderson. Because the Court does not rely on any of the challenged
exhibits in granting the defendants' motions for summary judgment, it is not
necessary to rule on the motion to strike. The motion is accordingly denied as moot.

II. Motion for Summary Judgment
Moving on, then, to the motions for summary judgment: summary judgment is
warranted where there is no genuine issue of material fact and the movant is
entitled to judgment as a matter of law. Fed. R. Civ. P. 56(a). To survive summary
judgment, the nonmovant must come forward [*7] with "specific facts showing that
there is a genuine issue for trial." Ptasznik v. St. Joseph Hosp., 464 F.3d 691, 694
(7th Cir. 2006). A mere "scintilla" of evidence in support of the nonmoving party's
position is insufficient; the nonmovant must present evidence which could support a
jury verdict in her favor. Id.
The primary issue here is whether Detective Popkov unreasonably prolonged the
length of Andersen's post-arrest, pre-probable cause hearing detention. While
officers may detain suspects for brief periods after warrantless arrests made
pursuant to "on-the-scene" probable cause assessments, "the Fourth Amendment
requires a [prompt] judicial determination of probable cause as a prerequisite to
extended restraint of liberty following arrest." Gerstein v. Pugh, 420 U.S. 103, 114,
95 S. Ct. 854, 43 L. Ed. 2d 54 (1975). A delay of 48 hours or less is presumed to be
reasonable, County of Riverside v. McLaughlin, 500 U.S. 44, 56, 111 S. Ct. 1661, 114
L. Ed. 2d 49 (1991), so it is Andersen's burden to establish that her 24-hour period
of detention was unreasonable. Portis v. City of Chicago, III., 613 F.3d 702, 704 (7th
Cir. 2010). She has not done so.
Popkov maintains in his motion for summary judgment that it was reasonable to
hold Andersen overnight because a judge was required to set bond
before Andersen could be released given the nature of the charge and that could not
happen until the following day. As explained by Popkov, while the Illinois Supreme
Court may prescribe "a uniform [*8] schedule of amounts of bail" in misdemeanor
A8

cases such that arrestees charged with minor offenses can bond out from the police
station without having to appear in court, see 725 ILCS 5/110-15 and People v.
Zlatnik, 29 Ill. App. 3d 498, 499, 331 N.E.2d 1, 3 (4th Dist. 1975), Illinois Supreme
Court Rule 528 provides that bail for certain misdemeanor domestic
offenses must be set by a judge. Ill. S. Ct. R. 528. Although Andersen does not raise
this issue, it is worth noting that Rule 528 states only that a judge must set bail "for
the offense of domestic battery, a violation of an order of protection, or any similar
violation of a local ordinance." Id. It says nothing about the Illinois misdemeanor
telephone harassment statute. Had Andersen been charged only with the
misdemeanor, then, she may have been entitled to bond out directly from the police
station. See Lampe v. Ascher, 59 Ill. App. 3d 755, 761, 376 N.E.2d 74, 78, 17 Ill. Dec.
181 (4th Dist. 1978) (police officers have no discretion in accepting a bond once it
has been set by Supreme Court rule).
No matter. Andersen was also facing felony stalking charges (for which there is no
uniform bail schedule), and it is undisputed that the State's Attorney had to
approve those charges before Andersen could be taken before a judge. GPD
procedure, moreover, specifies that an officer may not release a prisoner on an IBond—i.e. personal recognizance—when [*9] the individual is charged with a
felony. See Popkov's Ex. 12, ECF No. 216-12 (GPD General Order No. 88-37).
Further, according to Popkov's affidavit, the bond court call for criminal domestic
cases in September 2015 was at 1:30 p.m., which had already passed by the
time Andersen arrived at the police station. See Popkov's Ex. 3 f 18, ECF No. 216-3.
Popkov maintains that Illinois law and GPD policy therefore required him to
detain Andersen until she could be seen by the bond court the next day. See
also Riverside, 500 U.S. at 54 (explaining that Gerstein permits states to
incorporate probable cause determinations into the procedure for setting bail).
Andersen does not challenge the existence or applicability of these policies. Rather,
she challenges Popkov's assertion that he relied on them, noting that in his prior
motion to dismiss, Popkov justified the detention on grounds of the Illinois Domestic
Violence Act, 750 ILCS § 60/101, et seq. rather than Illinois bond procedure and
GPD General Orders, a point to which Popkov does not meaningfully respond. The
point, however, is essentially irrelevant: while shifting justifications might suggest
that Popkov's subjective motivation in detaining Andersen was not premised on
administrative [*10] procedures, Andersen has not shown that a different,
improper motive caused a delay because she has not adduced any admissible
evidence demonstrating that an earlier court hearing was available. In other words,
nothing in the record suggests that the length of Andersen's detention would have
been shorter had Popkov not engaged in alleged delay tactics with respect to the
felony review process, which seems to be her chief complaint.
In any case, Andersen has not produced sufficient evidence to support a finding that
the felony review process was in fact unreasonably delayed. For
instance, Andersen questions why Popkov did not initiate the process prior to her
arrest, but there is nothing inherently unreasonable about waiting until after an
arrest is made to call the Felony Review State's Attorney. See Bailey v. City of
A9

Chicago, 779 F.3d 689, 693 (7th Cir. 2015) (detention not unreasonable where
principal cause of delay was policy requiring felonies to be reviewed by the State's
Attorney). Andersen also maintains that Popkov obstructed her access to the State's
Attorney once he arrived at the station, but she has not cited to any authority (and
the Court is aware of none) holding that an arrestee is entitled to speak with the
prosecutor before [* 11] charges are approved. Finally, Andersen suggests that
Popkov met with witnesses while she was in custody in order to justify her arrest
after the fact, as evidenced by Popkov's "inappropriate conduct." Pl.'s Resp. Br. at
12. Along those lines, Andersen requests that the Court reconsider its ruling that
Popkov had probable cause to arrest her in light of her challenges to the
authenticity of the evidence upon which Popkov relied. Pl.'s Resp. Br. 3 n.l, ECF No
227. As the Court explained in its prior ruling, however, the authenticity of the
evidence is irrelevant to the probable cause analysis because the test for probable
cause is "what the police know, not whether they know the truth," Sheik-Abdi u.
McClellan, 37 F.3d 1240, 1247 (7th Cir. 1994). Even if the audio files had been
tampered with before the police obtained them, Andersen has not shown (nor does
she argue) that Popkov knew so prior to arresting her. There is therefore no need to
revisit the Court's probable cause determination, and the fact that Popkov met with
witnesses while Andersen was in police custody is thus of no moment. See United
States v. Daniels, 64 F.3d 311, 314 (7th Cir. 1995) (calling it "ludicrous" to argue
that Gerstein prohibits law enforcement from bolstering its case against a defendant
awaiting a hearing where probable [*12] cause to arrest defendant already existed).
Anderson next argues that the detention was unreasonable because Popkov
purposely timed the arrest to ensure that Andersen would be detained overnight
and lose custody of her children over the weekend so that Gimbel could take them to
a football game. See Response to Popkov's SOF f 34, ECF No. 266; Pl.'s Resp. Br. at
5. As an initial matter, Andersen supplies no authority holding that such a theory is
even cognizable. As explained in its prior ruling, pretextual motives for effectuating
an arrest are irrelevant so long as probable cause exists. See Whren v. United
States, 517 U.S. 806, 806, 116 S. Ct. 1769, 135 L. Ed. 2d 89 (1996). What's
more, Gerstein was concerned with judicial determinations of probable cause being
unreasonably delayed-, in a different context, the Supreme Court noted that there
can be no "delay" until there is an obligation to bring an individual before a judicial
officer in the first place, and there is no such obligation until an arrest
occurs. United States v. Alvarez-Sanchez, 511 U.S. 350, 358, 114 S. Ct. 1599, 128 L.
Ed. 2d 319 (1994). And specifically to Andersen's point, "a suspect has no
constitutional right to be arrested earlier than the police choose." United States v.
Cravero, 545 F.2d 406, 413 (5th Cir. 1976) (citing Hoffa v. United States, 385 U.S.
293, 310, 87 S. Ct. 408, 17 L. Ed. 2d 374 (1966) ("There is no constitutional right to
be arrested. The police are not required to guess at their peril the precise
moment [*13] at which they have probable cause to arrest a suspect .... "). See
also, e.g., United States v. Mosby, 541 F.3d 764, 768 (7th Cir. 2008) (rejecting
arguments that police were required to arrest defendant "the moment they had
probable cause to do so" and that their subjective motivation for conducting arrest

A10

at the time they did "is irrelevant as long as they had probable cause"). Popkov's
for
arresting Andersen at
a
specific
time
subjective
reasons
are
irrelevant; Andersen's claim turns not on that subjective inquiry but on the
objective inquiry of whether Popkov's actions unreasonably extended the length of
the post-arrest detention.
Even were the timing of the arrest relevant to Andersen's unreasonable detention
claim, moreover, the record does not support her argument that Popkov timed the
arrest to facilitate Gimbel's ability to spirit his children away to a football game.
Specifically, Andersen asserts that the fact that Popkov arrested her in the early
afternoon on September 10 (knowing that she would be held overnight) instead of
doing so first thing in the morning (so that she could be processed and released the
same day) shows that Popkov unreasonably prolonged the length of her detention.
But Popkov testified that his assigned [*14] shifts for the week he
arrested Andersen did not begin until 11:00 a.m., Popkov's SOF 3, and a one-off
work e-mail sent by Popkov at 9:58 a.m. on the morning of September
9, see Plaintiffs Ex. 3, ECF No. 226-4, does not suggest that he lied about when his
shift began or deliberately elected to hold off on arresting Andersen until he could
be sure that she would be detained overnight.
More importantly, Andersen has not produced any evidence from which a jury could
reasonably infer that Popkov engineered Andersen's detention overnight in order to
facilitate Gimbel's plan to obtain child custody, and that is the crux of her entire
theory. In support of her claim, Andersen relies almost exclusively on the
September 9 e-mail Gimbel sent to Popkov stating that it would "be interesting on
Friday" if Andersen were not arrested. But even if (taking all inferences
in Andersen's favor) the e-mail suggests some malintent on the part of
Gimbel, Andersen has not offered any evidence suggesting that Popkov was a
willing participant in this ploy. To the contrary, she has adduced no evidence that
Popkov prompted this communication, or responded to it, or knew anything about a
football game (to which [*15] the message makes no reference). If anything, the
text of the message supports an inference that Popkov had not yet decided to
arrest Andersen, as it suggests that Gimbel was urging him to do so. Further, the
undisputed facts show that Popkov was assigned the case on a Tuesday,
investigated the case on Tuesday and Wednesday, and arrested Andersen shortly
after his shift began on Thursday—had Popkov wanted to deprive Andersen of child
custody over the weekend in accordance with Gimbel's wishes, one would think that
he would have waited until Friday to arrest her.
That leaves only Andersen's attempt to call Popkov's credibility into question, which
she does by pointing to her own affidavit in which she asserts that Popkov
"inappropriately socialized" with Gimbel at her bond hearing and lied throughout
her criminal proceeding. See Anderson's Statement of Additional Statement of Facts
in response to Popkov's Mot. for Summary Judgment cf[<][ 9, 37, ECF No. 226.
Summary judgment, however, is not appropriate "when challenges to witness'
credibility are all that a plaintiff relies on." Springer v. Durflinger, 518 F.3d 479,
484 (7th Cir. 2008) (emphasis in original).
All

Finally, Andersen spends a substantial portion of her brief arguing that Popkov
violated [*16] the Fourth Amendment by initiating "trumped up" felony stalking
charges against her. Pl.'s Resp. Br. at 8-11. The Court, however, has already
dismissed Andersen's constitutional challenge to the filing of felony stalking charges
because "there is no such thing as a constitutional right not to be prosecuted
without probable cause," Serino v. Hensley, 735 F.3d 588, 593 (7th Cir. 2013), and in
any case, probable cause for the charges existed. See Andersen, 2018 U.S. Dist.
LEXIS 201642, 2018 WL 6192171, at *15 (N.D. Ill. Nov. 28, 2018). Further, the
record shows that it was the ASA, not Popkov, who approved the stalking charge
after his own review of the evidence.
In short, Andersen has not met her burden of showing that Popkov unreasonably
prolonged her post-arrest detention, so summary judgment on that claim must be
granted in his favor. And because there can be no conspiracy without an underlying
constitutional violation, Indianapolis Minority Contractors Ass'n, Inc. u. Wiley, 187
F.3d 743, 754 (7th Cir. 1999), both Popkov's and Gimbel's motions for summary
judgment are granted with respect to that claim.
The determinations that Gimbel's claims of harassment were supported by probable
cause and that Andersen's detention was lawful similarly warrant judgment in
Gimbel's favor on Andersen's IIED theory. Without the predicate of a baseless effort
to have her arrested and detained on criminal charges, Andersen's theory fails;
Gimbel's [*17] statements to others (the statements are not alleged to have been
made directly to Andersen) about Andersen's mental state, she maintains, caused
her extreme emotional distress because they were part of Gimbel's scheme to
deprive her of custody of her children. Response at 19 (IIED claim based on
"Gimbel's multi-year harassment of Andersen with his connections with the police,
by using his medical license to defame Andersen's mental health and by soliciting
frivolous charges so that he could harass her both in criminal court and further his
custody scheme"). Andersen may be correct when she argues (Response at 19) that
pursuing baseless > criminal charges against someone can support an IIED
claim. But see, e.g., Hoffman v. Hoffman, 2011 IL App (2d) 101005-U H 18 (false
allegations of sexual abuse by one former spouse against the other not extreme and
outrageous because spouse making allegation "had a legitimate objective to protect
her children when she reported suspected abuse to the appropriate
authorities"); Layne v. Builders Plumbing Supply Co., Inc., 210 Ill. App. 3d 966,
971-73, 569 N.E. 2d 1104, 155 Ill. Dec. 493 (1991) (filing false police report deemed
inadequate to support IIED liability). But here, for the reasons discussed, Gimbel's
efforts to have Andersen prosecuted, though unsuccessful, were not baseless: the
charges were supported [*18] by probable cause and the detention was not
unreasonable. To succeed on a theory of intentional infliction of emotional distress,
a plaintiff must prove that the defendant engaged in conduct so outrageous that it
goes "beyond all bounds of decency" and is "considered intolerable in a civilized
community." Fox. v. Hayes, 600 F.3d 819, 842 (7th Cir. 2010). Lawfully pursuing
criminal charges falls short of this demanding standard. Andersen has cited no case
affirming the existence of an IIED claim predicated on the lawful pursuit of

A12

criminal charges and this Court is aware of none. Andersen's IIED claim that
Gimbel engaged in a baseless "campaign to have her falsely arrested and prosecuted
so that she would lose custody over her children," MTD Order at 43, cleared the
hurdle of Gimbel's motion to dismiss because she stated a plausible claim that her
detention violated the Fourth Amendment. Having now concluded that
both Andersen's arrest and detention were lawful, the Court also concludes that the
IIED claim fails on summary judgment. As a matter of law, Gimbel's actions were
not extreme and outrageous.
* * *

For the reasons stated above, the defendants' motions for summary judgment are
granted. Judgment will be entered in favor of the defendants. [*19]
/s/ John J. Tharp, Jr.
John J. Tharp, Jr.
United States District Judge
Dated: September 9, 2019
Footnotes
• Andersen's responses to the defendants' statements of fact are replete with
improper argument contesting the relevance of proffered facts and contesting the
inferences that can be drawn from them. Her own statements of fact include
allegations spanning the course of the years-long domestic disputes
between Andersen and Gimbel despite the narrow scope of the only remaining issue
in this case—specifically, whether the defendants conspired to unlawfully
prolong Andersen's detention following her arrest on September 10, 2015.
Accordingly, the Court declines to conduct a forced march in this opinion through
every dispute Andersen raises. Unless otherwise noted, the facts presented in this
section have either been expressly alleged or admitted by Andersen or the Court has
considered and rejected her objections to consideration of the statement.
• To be clear, the phone calls relevant to the criminal charges brought
against Andersen, and her claims in this case, were made in August and September
2015. Andersen disputes the relevance of any other calls (specifically, a series of
calls she made in June 2015), Response to Gimbel SOF f 10, ECF No. 221, and the
Court has not considered those calls.
• The summary judgment record is not clear as to the date or location of this football
game, but the Court understands from the record in this case generally that the
game in question was at the University of Illinois on Saturday, September 12, 2015.
See also https://www.sportsreference. com/cfb/schools/illinois/2015-schedule.html
(last visited Sep. 8, 2019) (University of Illinois 2015 Schedule and Results,
reflecting home game played on Sep. 12, 2015).
•
•

There is no dispute about the propriety of the arrest in Andersen's home. It is
undisputed that Andersen admitted Popkov into the home.
Andersen did not seek summary judgment on the remaining claims or to amend any
of the claims the Court previously dismissed without prejudice.
A13

•

Popkov states that GPD policy prohibits officers from releasing individuals "on
bond" when the individual is charged with any misdemeanor that is domestic in
nature, Popkov's SOF % 34, but the policy to which he cites states only that/bonds will not be authorized for domestic related misdemeanors; it does not refer to
bond generally. See Popkov's Ex. 12, ECF No. 216-12 (GPD General Order No. 8837).
• Andersen's argument that Popkov has "no competency" to testify to this
fact, see Response to Popkov's SOF % 38, ECF No. 226, is misplaced. By virtue of his
position as a detective, Popkov's averment that he has personal knowledge
regarding bond hearing schedules at the courthouse in his jurisdiction suffices to
establish his competency to testify to this fact.
• Andersen maintains that she called the presiding judge's office at the courthouse
and was told that police officers may seek permission to alter the time for bond
calls. Anderson's Statement of Additional Statement of Facts in response to
Popkov's Mot. for Summary Judgment H 40, ECF No. 226. This is plainly
inadmissible hearsay not supported by any other evidence and will not be
considered for purposes of this motion. See Baines v. Walgreen Co., 863 F.3d 656,
662 (7th Cir. 2017) (evidence offered at summary judgment must be admissible to
the same extent as at trial).
• That Gimbel, in Andersen's words, "solicited" Popkov to arrest Andersen, Response
at 5, is not probative of a conspiracy between the two than; the same could be said
of most people who report to the police that they are victims of a crime.
• The Court also grants Detective Popkov's motion on the grounds of qualified
immunity. "Qualified immunity is an affirmative defense, and once raised, the
plaintiff bears the burden of defeating it by showing: (1) the defendant violated a
constitutional right, and (2) that right was clearly established at the time of the
alleged violation." Sinn v. Lemmon, 911 F.3d 412, 418 (7th Cir. 2018). "A failure to
show either is fatal for the plaintiffs case." Archer v. Chisholm, 870 F.3d 603, 613
(7th Cir. 2017). As discussed, Andersen has failed to show a violation of a
constitutional right, but even if she had, to defeat Popkov's qualified immunity
defense, she would also be required to demonstrate that the right was clearly
established at the time. Id. at 419. Andersen, however, has made no attempt to do
so; she does not discuss this requirement, much less identify any precedent
establishing that it was clearly established at the time that Popkov's conduct
(however defined) violated the Fourth Amendment. Accordingly, Popkov is entitled
to qualified immunity.
• Any such holding would also stand in considerable tension with privileges
recognized under Illinois law for reporting misconduct to law enforcement, whistle­
blowing, and the like. See, e.g., Vincent v. Williams, 279 Ill. App. 3d 1, 7, 664 N.E.2d
650, 216 Ill. Dec. 13 (1996) ("It has long been held that statements made to law
enforcement officials, for the purpose of instituting legal proceedings, are granted
absolute privilege.").

A14

♦V

Andersen v. Vill. of Glenview, No. 17 CV 05761, 2019 U.S. Dist. LEXIS 152890, at
*1 (N.D. Ill. Sep. 9, 2019)

A15

APPENDIX C
IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
)
Barbara Andersen
)
Case l:17-cv-05761
Plaintiff
)
v.
)
Village of Glenview, Rick Gimbel,
)
Morris Kharasch, Jacob Popkov
MEMORANDUM OPINION AND ORDER
This case presents an unfortunate but not unfamiliar saga: divorced parents
warring over custody of their children. Here, the custody battle has spawned a
federal civil rights case in which the plaintiff, Barbara Andersen, claims that she
was arrested, held overnight, and prosecuted on trumped up stalking charges in a
ploy engineered by her ex-husband, defendant Rick Gimbel, to deprive her of
custody of their children. [*2] Andersen alleges that Gimbel carried out his plan
with the assistance of his boss Dr. Morris Kharasch, Detective Jacob Popkov of the
Village of Glenview police department, and the Village of Glenview (the other
defendants in this case). After Andersen prevailed at the criminal trial (she was
acquitted on the only charge that was not dismissed beforehand), she filed the 12count, 273 paragraph pro se complaint at issue in this case. All four defendants
have moved to dismiss the complaint for failure to state a claim, and Andersen has
moved to strike exhibits on which those motions rely. Andersen's motion to strike is
granted in part and denied in part. Gimbel's motion to dismiss is denied. The
Village's and Popkov's joint motion to dismiss is granted as to the claim against the
Village but denied as to the claim against Popkov. Kharasch's motion to dismiss is
granted.
BACKGROUND
I. Facts
Barbara Andersen, a real estate attorney, and Rick Gimbel, an emergency room
surgeon, divorced in 2009 and entered into a joint custody agreement regarding
their two children. In 2015, for reasons somewhat unclear but immaterial, Gimbel
allegedly started to harass Andersen by sending unsolicited e-mails [*3] and
threatening to file frivolous domestic complaints against her with the police. Compl.
% 23. Gimbel, who had met several Village of Glenview police officers through his
job as an ER doctor, frequently bragged about using these connections. Id. at M 18,
27. Andersen reported this "cronyism" and harassment to the Glenview Police
Department on several occasions during the summer of 2015 but the harassment
A16

continued. Gimbel also prevented Andersen from contacting the children when they
were with him. Id. at <j[f 28, 41. Andersen responded on August 2, 2015 by leaving
Gimbel "several voicemails"—actually eight within a span of about three hours—
demanding access to the children. Id. at 'll 29; Village and Popkov's Memorandum in
Support of Motion to Dismiss, ECF No. 34, Ex. 1. Andersen also reported Gimbel to
the Glenview police department and left a message for his supervisor Dr. Kharasch
in which she complained that Gimbel was harassing her. Compl. M 30-31.
On September 6, 2015, Andersen learned that Gimbel had advised their minor son
that Anderson was "mentally ill." Id. at f 41. She "became angered and called
several people to intervene and stop Gimbel from harassing her." Id. at f
42. [*4] (In fact, Andersen made a barrage of calls in the span of several hours on
September 6, in which she left seven messages on Gimbel's voicemail, three on his
mother's, and three on his brother's. Village and Popkov's Memorandum in Support
of Motion to Dismiss at Ex 4.) The gist of these messages was a demand that
Gimbel's family stop bad-mouthing Andersen to her children; in one of the calls to
Gimbel, Andersen stated, "you're dead, you're dead." Andersen sought to press
charges against Gimbel but was told by police officers that her complaint was civil
in nature and that she should take the matter up in the domestic relations
division. Andersen then returned to domestic relations court where she filed a
motion for a protective order. Compl.
37-38.
After Andersen's messages on September 6, Gimbel filed his own complaint of
harassment with the Glenview Police Department and submitted recordings of the
voicemails left by Andersen. Andersen contends that the Police Department,
because of its bias in favor of Gimbel, took his complaints more seriously and made
no effort to investigate her side of the story. Id. at RI 40. The investigation was
assigned to Detective Popkov, and he and Gimbel [*5] exchanged multiple e-mails
discussing the possibility of bringing criminal charges against Andersen. Id. at ‘R 48.
Popkov allegedly acted in a biased fashion by "collecting forensically unsound
evidence and failing to look for and/or secure exculpatory evidence." Id. at RI
55. Andersen also alleges, however, that the Police Department interviewed Dr.
Morris Kharasch, Gimbel's boss, about the reported cronyism. Id. at R[ 53. Kharasch
allegedly offered a "negative and defamatory opinion" that Andersen was mentally
ill. Id. atM 53-54.
Events came to a head on Thursday, September 10, 2015. Gimbel had requested
several times to have custody of the children on September 11, 2015 in order to take
them to a football game in Champaign-Urbana, Illinois; Andersen was scheduled to
have custody that day and had refused Gimbel's requests. Andersen alleges that
Gimbel had then threatened to "effectively kidnap the children." Id. at f 50. In an
email exchange between Andersen and Gimbel on the evening of September
9, Andersen told Gimbel: "Due to your threat to steal the children Friday
[September 11] you will have no further access until your designated time." Id. at

A17

Ex. 20. Gimbel forwarded this email [*6] to Detective Popkov a few minutes later,
writing: "Going to be interesting on Friday if barb is not arrested." Id.
Early in the afternoon on September 10, 2015, Popkov (along with another
unidentified officer) went to Andersen's home, and she allowed them to enter. Id. at
SI 59. Popkov "gave the impression" that the officers were there to discuss a minor
harassment charge stemming from Gimbel's complaint, and apparently
rebuffed Andersen's explanations. Id. at SI 64. Then, over her objections, he
arrested Andersen without specifying a precise charge. Popkov did not secure a
warrant prior to making the arrest. Id. at SI 58.
Popkov took Andersen to the police station and placed her in an interrogation room
at about 1:30 p.m., where she signed a Miranda warning waiver. Id. at SI 68; Village
and Popkov's Memorandum in Support of Motion to Dismiss at Ex. 4, police
interview video time stamp. After a period of questioning, Popkov
informed Andersen that he was contemplating charges related to felony stalking
and Andersen's 2014 destruction of one of the children's phones. Early in the
interview, Popkov asked Andersen whether she thought her behavior had been
rational, to which she replied, "No, [*7] but I was mad." Village and Popkov's
Memorandum in Support of Motion to Dismiss at Ex. 4, police interview video at
approx. 19:50. When Andersen later requested to be released so that she could pick
up her children from school, she was told that she would be detained overnight and
that Gimbel would pick up the kids. Compl. at M 70, 71. Andersen immediately
asked to speak to Popkov's supervisors and a State's Attorney. She also "requested
access to a telephone to attempt to seek counsel" but was told to wait because a
State's Attorney would be coming to the station. Id. at f 74. After several
hours, Andersen learned that the State's Attorney had arrived and was
interviewing
Gimbel
and
other witnesses. Id. at
'll 75. At that
point, Andersen "demanded to be charged, processed by the police, given access to a
telephone, and placed in the overnight detention cell." Id. Popkov reacted to these
demands, Andersen alleges, with "a twisted form of amusement." Id. at 'll 76. At
around 7 p.m., Andersen was processed and given access to a phone, but was
unsuccessful in contacting an attorney. She was then confined in a cell until the
following morning.
At the bond hearing the next day (September [*8] 11, 2015), the State's Attorney (who is not alleged to have been part of the scheme) approved a criminal complaint,
signed by Popkov on behalf of Gimbel as complainant, for felony
stalking. Andersen alleges that Popkov signed the complaint despite knowing that
the charge was unfounded. Id. at 'll 87. As evidence, Andersen points to an e-mail
between Popkov and Gimbel dated September 9, 2015 in which Popkov wrote,
"Showing up early for scheduled custody transfer most likely won't constitute
stalking." Id. at Ex. 18. Andersen also alleges that Popkov falsely stated in the
verified complaint and during the subsequent grand jury hearing that her
voicemails to Gimbel "were of a threatening/disturbing nature." Id. at f 87. She
A18

alleges that, on the basis of "derogatory mental health comments made by Popkov,
Gimbel, and Kharasch," the State's Attorney "attacked" her mental health and
persuaded the judge to impose as a condition of release that Andersen submit to a
mental health examination. Id. at f 91. Andersen was released on bond the same
day on the condition that she submit to a psychiatric examination. The bond court
also ordered that the children would live with Gimbel until further order [*9] of the
domestic relations court. Later that month, a grand jury indicted Andersen on two
counts of felony stalking and one count of felony telephone harassment with intent
to kill. Id. at f 94.
Before the criminal case went to trial, Andersen and Gimbel returned to the
domestic relations court. There, the judge stated that it felt Gimbel was
setting Andersen up and that there was "a grand master plan" of
eliminating Andersen's custody over the children. Id. at
108. The court then
ordered the immediate return of the children to Andersen. Gimbel continued to
harass Andersen and to make derogatory comments about her mental health to
third parties. Id. at H 113.
Meanwhile, in preparation for trial, Andersen submitted FOIA and subpoena
requests to Eric Patt, the attorney for the Village of Glenview, but was met with
"obstructionist" responses. Id. at H 137. On July 18, 2016, the State nolle prossed
the two stalking counts after a ruling by an Illinois appellate court held the statute
unconstitutional. On November 29, 2016, allegedly in response to Andersen's filing
of a motion to dismiss, the State reduced the count of felony telephone harassment
with intent to kill to a count of misdemeanor [*10] telephone harassment. A bench
trial was held in June 2017 on the misdemeanor telephone harassment charge, and
the court found Andersen not guilty. Id. at 170. Andersen filed the complaint in
this case shortly thereafter, on July 14, 2017.
All four defendants moved to dismiss the complaint. Andersen subsequently moved
to strike exhibits attached to the defendants' motions and it is there that the
Court's analysis will begin.

MOTION TO STRIKE
Popkov and the Village attached to their motion to dismiss: (1) recordings of
voicemails left by Andersen to Gimbel on August 2, 2015, and to Gimbel and some of
his family members on September 6 and 8, 2015; (2) a video recording of Andersen's
police interrogation; and (3) Gimbel's complaints to police and the subsequent police
reports detailing pre-and post-arrest evidence collection. Gimbel attached the same
police reports to his motion to dismiss.

A19

Generally, a district court must convert a motion to dismiss into a motion for
summary judgment if it considers matters outside the pleadings. Gen. Elec. Capital
Corp. u. Lease Resolution Corp., 128 F.3d 1074, 1080 (7th Cir. 1997). Conversion is
not required, however, if the extrinsic exhibits are "referred to in the plaintiffs
complaint and are central to her claim." Venture Assocs. Corp. v. Zenith Data Sys.
Corp., 987 F.2d 429, 431 (7th Cir. 1993). That said, courts [*11] should not consider
exhibits requiring authentication or disambiguation through discovery. Tierney u.
Vahle, 304 F.3d 734, 739 (7th Cir. 2002).
Andersen does not dispute that the voicemail recordings and interrogation tape are
"central to her claim." Indeed, Popkov's alleged reliance on her voicemails to
"manufacture a stalking charge," falsely arrest her, and maliciously prosecute her is
a major component of her claims against Popkov and Gimbel. Compl. *1 29. So, too,
the
videotaped
interrogation,
during
which Andersen realized
that
"the Glenview Police Department had pre [sic] and co-planned the arrest of
[Andersen] with Gimbel" and the interviewing officers allegedly "made several
biased, inappropriate and derogatory comments" about Andersen's mental
health. Id. at % 71. This alleged conspiracy is another central aspect of Andersen's
claim. Rather, Andersen contends only that the Court should not consider the
voicemail recordings or police reports because they are not "concededly authentic."
Specifically, she argues that the original files were destroyed prior to the criminal
trial and that Gimbel admitted at trial to altering the audio files prior to tendering
them to the police department.
Andersen's argument that the voicemails [*12] may not be authentic misses the
mark. As the Village points out, Andersen does not allege that Popkov had any
reason to believe that the voicemails had been inappropriately tampered with before
Gimbel gave them to the police department. Because the test for probable cause is
"what the police know, not whether they know the truth," Sheik-Abdi v. McClellan,
37 F.3d 1240, 1247 (7th Cir. 1994), Gimbel's handling of the audio files before giving
them to the police is immaterial absent allegations, which the complaint lacks, that
Popkov knew that the content of the recordings was not authentic.
Further, Andersen makes no argument that she does not recognize the attached
voicemails, that she did not make the statements contained in voicemails, or that
the voicemails were from a different date than as labeled. In other words, she does
not dispute that the voicemails are what the defendants say they are: evidence
(previously altered or not) tendered to the police and relied upon by Popkov when
deciding to arrest Andersen and when signing the criminal complaint. For those
reasons, the motion to strike is denied as to the voicemails.
As for the police reports, Andersen argues that they should not be considered
because 1) they are inadmissible hearsay [*13] and 2) the complaint alleges
falsification of police reports. Defendants argue that the reports are not hearsay
because they are not offered for the truth of the matters asserted, but rather to
explain what Popkov considered before arresting Andersen. But that is true only as
A20

to some of the information included in the reports; many of the matters asserted in
the reports—"Gimbel showed [Popkov] eight voicemail messages he received
from Andersen," for example—are indeed offered for their truth. Village and
Popkov's Memorandum in Support of Motion to Dismiss at Ex. 3. In other words, it
is only if the statements are true (i.e., that Gimbel did in fact show Popkov the
voicemails) that they support the defendants' argument that Popkov had probable
cause.
Additionally, defendants do not address Andersen's point about alleged falsification.
As another court in this district noted, police records cannot be considered
"concededly authentic" where a complaint "alleges that the Defendants
manufactured evidence against the Plaintiff." Gardunio v. Town of Cicero, 674 F.
Supp. 2d 976, 985 (N.D. Ill. 2009). Here, Andersen's complaint specifically alleges
that Popkov engaged in perjury and "manufactured a fictitious police report" to
protect himself from civil litigation. [*14] Compl. % 146. Because the authenticity of
the attached reports is therefore in question, it would be improper to consider them
when assessing the pending motions to dismiss. Certainly at this stage the Court
cannot accept the truth of the events set forth in Popkov's arrest report. Andersen's
motion to strike the police reports is accordingly granted. For the above reasons,
however, the Court will consider the voicemail recordings and the interrogation
video.

MOTION TO DISMISS
The Court turns now to defendants' motions to dismiss. To survive a motion to
dismiss under Federal Rule of Civil Procedure 12(b)(6), "a complaint must contain
sufficient factual matter, accepted as true, to 'state a claim to relief that is plausible
on its face."’ Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct. 1937, 173 L. Ed. 2d 868
(2009). A claim has "facial plausibility" where the complaint's factual content
"allows the court to draw the reasonable inference that the defendant is liable for
the misconduct alleged." Id. When considering a motion to dismiss, the Court
construes all inferences in favor of the plaintiff. Zemeckis v. Global Credit &
Collection Corp., 679 F.3d 632, 634 (7th Cir. 2012). That said, courts "are not bound
to accept as true a legal conclusion couched as a factual allegation." Bell Atlantic
Corp. v. Twombly, 550 U.S. 544, 555, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007).
In evaluating the defendants' motions to dismiss, it is important to understand that
Rule 12(b)(6) speaks of the [*15] dismissal of claims, not legal theories. A claim is a
collection of facts that could entitle the plaintiff to relief under some legal
theory. But plaintiffs are not required to identify in the complaint the legal theory,
or theories, on which they wish to proceed; the complaint need only set forth "a
short and plain statement of the claim showing that the pleader is entitled to
relief." Fed. R. Civ. P. 8(a);Alioto v. Town of Lisbon, 651 F.3d 715, 721 (7th

A21

Cir.2011) ("[W]e have stated repeatedly (and frequently) that a complaint need not
plead legal theories, which can be learned during discovery."). It follows, then, that
there is no penalty to be imposed for invoking the wrong theory in the
pleadings. King v. Kramer, 763 F.3d 635, 642 (7th Cir. 2014) ("A complaint need not
identify legal theories, and specifying an incorrect theory is not a fatal
error."). "[T]he critical question is whether the plaintiffs have stated a plausible
claim for relief under some recognized legal theory, not whether they have properly
labeled that theory."). Volling v. Antioch Rescue Squad, 999 F. Supp. 2d 991, 997
(N.D. Ill. 2013).
Nevertheless, plaintiffs often set forth their legal theories in different "counts" and
defendants often attempt to shoot down those theories in motions to dismiss some
or all of those counts pursuant to Rule 12(b)(6) for "failure to state a claim." That is
the practice that the parties [*16] have followed in this case. After setting forth 170
paragraphs of fact allegations, Andersen then sets forth her legal theories in 12
"causes of action," each of which incorporate all of the preceding paragraphs
(including those set forth in any of the preceding "causes of action"), premised both
on federal constitutional violations and violations of state law. Andersen maintains
that in the course of her arrest and subsequent processing, Detective Popkov
violated her First, Fourth, Fifth, Sixth, and Fourteenth Amendment rights (Count
VI) and deprived her of her constitutional right to parent-child society (Count III).
She also maintains that Popkov violated her Fourth and Fourteenth Amendment
rights, and Illinois common law, by maliciously prosecuting her (Counts IX and
VIII). Additionally, Andersen asserts that Popkov and Gimbel conspired to deprive
her of her right to parent-child society (Count IV), to falsely arrest and detain her
(Count VII), and to maliciously prosecute her (Count X). Andersen further contends
that Gimbel defamed her (Count I) and Gimbel, Kharasch, and Popkov intentionally
inflicted emotional distress upon her (Count II) by making derogatory remarks
about her mental health, and that Gimbel also did so by refusing to drop
the [*17] criminal charges against her (Count XI). Finally, as to the Village
of Glenview, Andersen maintains that it bears responsibility for Popkov's various
actions under a Monell theory of liability (Count XII).
For their part, the defendants attempt to counter this barrage on a count-by-count
basis, asserting along the way that each different count should be dismissed. But
because a "count" is not a claim per se, the invalidity of a count does not necessarily
invalidate the claim; there may be more than one legal theory advanced in support
of a single claim. And no matter how many legal theories, or "counts," a plaintiff
may assert, they constitute a single "claim" to the extent premised on the same
facts; "different legal theories ... do not multiply the number of claims for
relief." NAACP v. Am. Family Mut. Ins. Co., 978 F.2d 287, 292 (7th Cir. 1992) ("One
set of facts producing one injury creates one claim for relief.").
The distinction between claims and theories matters because Rule 12(b)(6) "doesn't
permit piecemeal dismissals of parts of claims." BBL, Inc. v. City of Angola, 809
A22

F.3d 317, 325 (7th Cir. 2015) (emphasis in original); see also Hobbs v. Gerber, No. 17
C 3534, 2018 U.S. Dist. LEXIS 136943, 2018 WL 3861571, at *4 (N.D. Ill. Aug. 14,
2018) (Rule 12(b)(6) "does not speak of the dismissal of legal theories."); Zidek v.
Analgesic Healthcare, Inc., No. 13 C 7742, 2014 U.S. Dist. LEXIS 77104, 2014 WL
2566527, at *2 (N.D. Ill. June 6, 2014) (" [I]f the Court were to grant partial relief on
this Motion, it would not be 'dismissing claims' but rather limiting
legal [*18] theories available to Plaintiffs to prove their entitlement to damages for
these acts. The federal rules allow for dismissal for 'failure to state a claim' but do
not provide a basis for striking individual legal theories."). A complaint may be
dismissed pursuant to Rule 12(b)(6) only if the claim, or claims, it asserts give rise
to no entitlement to relief under any legal theory. See Richards v. Mitcheff, 696 F.3d
635, 638 (7th Cir. 2012) (a claim survives if it is supported by at least one
recognized legal theory). The upshot is that if there is some identifiable theory that
plausibly supports a claim, that claim survives and there is no occasion for a court
to "dismiss" alternative legal theories pursuant to Rule 12(b)(6). See, e.g., Julin v.
Advanced Equities, Inc., No. 13 C 9075, 2015 U.S. Dist. LEXIS 50673, 2015 WL
1810329, at *3 (N.D. Ill. Apr. 17, 2015) (no need for a district court to "waste its
resources addressing each additional legal theory seeking the same recovery sought
in earlier 'causes of action'").
To address the defendants' motion to dismiss the complaint, then, the Court must
identify Andersen's "claims." As the Court reads the complaint, Andersen presents
two. The first is premised on the allegations describing her arrest and detention;
the second arises from her subsequent prosecution. To prevail on their motions to
dismiss, the defendants must demonstrate that [*19] the facts relating to these two
claims do not give rise to some right to legal relief against them. To do that, a
defendant must show that there is no plausible legal theory to support liability on
the factual claim; it is not sufficient to show that some, but not all, of the legal
theories advanced fail to offer relief. In other words, if Andersen's claims can go
forward against a defendant on some legal theory, the defendant's motion to dismiss
must be denied even if alternative theories advanced by the plaintiff do not support
liability.

I. ANDERSEN'S ARREST AND DETENTION CLAIM
Andersen's central claim is that her arrest and detention violated a bevy of
constitutional and state law rights. Although most of her theories are not viable, the
Court concludes that, taken as true, the facts encompassed by this claim are
sufficient to state a plausible claim for relief against Detective Popkov and Dr.
Gimbel under the Fourth Amendment.

A23

Vv

Constitutional Theories
In alleging constitutional violations, Andersen invokes 42 U.S.C. § 1983, which
makes liable state actors for actions taken under color of law that violate the
Constitution or other federal law. In Count VI, Andersen asserts against Detective
Popkov theories of false [*20] arrest and unreasonable detention in violation of the
First and Fourth Amendments, and deprivation of the right to counsel in violation
of the Fifth and Sixth Amendments. In Count III, Andersen alleges that her
detention by Popkov violated her substantive due process right to a parent-child
relationship.

1. Fourth Amendment: False Arrest
Andersen's false arrest theory fails because Popkov had probable cause to arrest her
for telephone harassment. To prevail on a false arrest action under § 1983, a
plaintiff must show that officers violated the Fourth Amendment, as applied to the
states through the Fourteenth Amendment, by arresting her without probable
cause to do so. Neita u. City of Chicago, 830 F.3d 494, 497 (7th Cir. 2016)
(citing Thayer v. Chiczewski, 705 F.3d 237, 246 (7th Cir. 2012)). "A police officer has
probable cause to arrest an individual when the facts and circumstances that are
known to him reasonably support a belief that the individual has committed, is
committing, or is about to commit a crime." Holmes v. Vill. of Hoffman Estates, 511
F.3d 673, 679 (7th Cir. 2007). Further, probable cause that a person has
committed any crime defeats a claim premised on false arrest, "even if the person
was arrested on additional or different charges for which there was no probable
cause." Id. at 682. Finally, the existence of probable cause is an objective evaluation;
pretextual motives are irrelevant. See Whren v. United States, 517 U.S. 806, 806,
116 S. Ct. 1769, 135 L. Ed. 2d 89 (1996) ("Subjective intentions play no role in
ordinary, probable cause [*21] Fourth Amendment analysis.").
Andersen first contends that raising the defense of probable cause is procedurally
improper at the motion to dismiss stage and notes that the jury must decide
whether probable cause exists where there is "room for a difference of opinion
concerning the facts or the reasonable inferences to be drawn from
them." Sornberger v. City of Knoxville, 434 F.3d 1006, 1013-14 (7th Cir. 2006). But
that is not to say that the determination of probable cause is always, or even
generally, the province of the jury. "Whether the known facts add up to probable
cause is a legal question for the judge, not a subject on which jurors are entitled to
form their own opinions." Bridewell v. Eberle, 730 F.3d 672, 676 (7th Cir. 2013).
Courts, not juries, address the defense of probable cause when "the underlying facts
claimed to support probable cause are not in dispute." Maxwell v. City of
Indianapolis, 998 F.2d 431, 434 (7th Cir. 1993). And a plaintiff may plead herself

A24

out of court "by pleading facts that establish an impenetrable defense to [her]
claims." Tamayo v. Blagojevich, 526 F.3d 1074, 1086 (7th Cir. 2008).
Although the criminal complaint Popkov signed charged Andersen with stalking, he
does not respond to Andersen's false arrest theory by arguing that there was
probable cause to arrest her for that crime. Correctly noting that "so long as there
is a reasonable basis for the arrest, the seizure is justified on that basis even
if [*22] any other ground cited for the arrest was flawed," Holmes, 511 F.3d at 68,
Popkov argues instead that the arrest was lawful because he had probable cause to
believe that Andersen was guilty of telephone harassment. And he did.
Telephone harassment, as prohibited by the Illinois criminal code, is defined in
relevant part as "[m]aking a telephone call, whether or not conversation ensues,
with intent to abuse, threaten, or harass any person at the called number . . . ." 720
ILCS 5/26.5-2. In the eight voicemails Andersen left for Gimbel on August 2, 2015 in
the span of about three hours, she calls Gimbel "a creep," "Hitler," "a complete jerk,"
and an "asshole." She tells him that he is "crazy" and "ridiculous," that "nobody
likes [him]," and that he should "get over [himself]." She threatens to embroil his
employer in the dispute. She asserts that he is in contempt of court. Put simply, the
number, timing, and content of these calls reasonably support a belief
that Andersen committed the crime of telephone harassment. See Village and
Popkov's Memorandum in Support of Motion to Dismiss at Ex. 1.
Even without considering the voicemail recordings attached to defendants' motion
to dismiss, moreover, this Court finds that Andersen's [*23] complaint establishes
that "no reasonable jury could find that the officers did not have probable cause to
arrest [her]" for telephone harassment. Maxwell, 998 F.2d at 434 (7th Cir. 1993).
In Reynolds u. Jamison, the Seventh Circuit addressed a very similar set of facts
and concluded that the officer had probable cause to arrest a suspect under the
Illinois telephone harassment statute. 488 F.3d 756, 761 (7th Cir. 2007). In that
case, the putative victim told police that the arrestee "had called her several times
that day . . . and that he had made harassing phone calls to her at work over a
period of months." Reynolds, 488 F.3d at 765. The Seventh Circuit, affirming the
district court's grant of summary judgment in favor of the defendant, noted that "a
complaint of the putative victim ... is generally sufficient to establish probable
cause unless the officer has a reason to question the witness' account." Id. The court
also specified that the officer had not relied solely on the victim's statements; he
also reviewed a call log and spoke to the victim's co-workers, who verified her
account. Finally, the court dismissed the arrestee's argument that he had also been
harassed, explaining that whether the victim had also placed calls to the arrestee
did not bear on whether the officer [*24] had probable cause at the time of the
arrest. Id. at 762.
Here, Andersen alleges in her complaint that she "left several voicemails to demand
access to her children." Compl. f 29. The same day, she called Dr. Morris Kharasch,
A25

Gimbel's boss, to advise him of "Gimbel's inappropriate harassment." Kharasch
later informed the Glenview Police Department of the call. Id. at
31,
53. Andersen further alleges that on another occasion, she "became angered and
called several people to intervene and stop Gimbel from harassing her." Id. at SI 42.
According to her complaint, Gimbel then "filed a police report . . . [stating] that he
was being 'harassed' vis-a-vis the voicemail messages" and the officer "took the
voicemails into evidence." Id. at SI SI 39, 44. Gimbel also forwarded a log of his
incoming calls to Popkov. Id. at Ex. 18. Taken together, these facts clearly establish
that Popkov had probable cause to arrest Andersen for telephone harassment. As
in Reynolds, Gimbel filed a complaint with the police which was corroborated by a
coworker, and Popkov relied on that information plus a call log provided by the
putative victim. Andersen attempts to avoid this conclusion by arguing that Popkov
purposefully [*25] ignored the fact that she too had filed police reports and that he
should have therefore tried to secure exculpatory evidence. But again, as stated
in Reynolds, "the fact that [the arrestee] originally called the police concerning the
dispute ... is immaterial," and once an officer has probable cause, he is "under no
duty to investigate further." Reynolds, 488 F.3d at 762, 766; see also Askew v. City of
Chicago, 440 F.3d 894, 895 (7th Cir. 2006) ("Police need not conduct an
investigation but may arrest and let prosecutors and courts determine who is telling
the truth."). Popkov's alleged ulterior motive, moreover, is irrelevant under Whren.
And finally, Andersen's claim that her acquittal on the harassment charge
demonstrates that there was no probable cause for her arrest has no merit, as
probable cause is a lesser standard than proof beyond a reasonable doubt, which
applied during her criminal trial. See Harney v. City of Chicago, 702 F.3d 916, 924
(7th Cir.
2012) (acquittal does not establish lack of probable
cause). Because Andersen's allegations in the complaint establish that Popkov had
probable cause to arrest her, her claim cannot prevail on a Fourth Amendment false
arrest theory.

2. Fourth Amendment: Unreasonable Detention
Andersen also contends in Count VI that her overnight detention violated the
Fourth Amendment. In Gerstein v. [*26] Pugh, the Supreme Court held that an onthe-scene probable cause assessment permits police officers to detain suspects for a
brief period while they take "administrative steps incident to arrest." 420 U.S. 103,
113-14, 95 S. Ct. 854, 43 L. Ed. 2d 54 (1975). The Fourth Amendment, however,
entitles a person arrested without a warrant to a prompt judicial determination of
probable cause. Id. Detention for up to 48 hours will generally comply with the
Fourth Amendment unless "the arrested individual can prove that his or her
probable cause determination was delayed unreasonably." County of Riverside v.
McLaughlin, 500 U.S. 44, 56, 111 S. Ct. 1661, 114 L. Ed. 2d 49 (1991). A delay is
unreasonable when, for example, it is needless, it is motivated by ill will against the
arrested individual, it is extended to gather additional evidence to justify the arrest,

A26

or it is deliberately created so that the process becomes the punishment. Id. at
56; Portis v. City of Chicago, 613 F.3d 702, 705 (7th Cir. 2010). On the other hand,
courts "cannot ignore the often unavoidable delays in transporting arrested persons
from one facility to another, handling late-night bookings where no magistrate is
readily available, obtaining the presence of an arresting officer who may be busy
processing other suspects or securing the premises of an arrest, and other practical
realities." McLaughlin, 500 U.S. at 56-7.
Andersen was allegedly detained for approximately 24 hours before she was
brought [*27] before a judge. She argues that the detention was unreasonable
because its purpose was to deprive her of custody of her children so that Gimbel
could take them to a football game. See Portis, 613 F.3d at 705 (explaining that
courts must examine "not only the length of a given detention but also the reasons
why release was deferred"). Popkov does not defend the delay as necessary to
complete
the
administrative
processing
required
his
arrest
by
of Andersen. Effectively conceding that there was no administrative justification to
hold Andersen overnight, Popkov defends the reasonableness of the overnight
detention by asserting that the Illinois Domestic Violence Act ("IDVA"), 750 ILCS
60/304(a)(l) required it. That Act states in relevant part that "whenever a law
enforcement officer has reason to believe that a person has been abused, neglected,
or exploited by a family or household member, the officer shall immediately use all
reasonable means to prevent further abuse, neglect, or exploitation, including:
arresting the abusing, neglecting and exploiting party, where appropriate." 750
ILCS 607304(a)(1).
The Court concludes that the facts alleged plausibly show that
detaining Andersen in custody overnight was unreasonable because her detention
was engineered [*28] to give custody of the children to Gimbel on September 11,
not to protect Gimbel, or the children, or others, from Andersen. For example, she
alleges—and email evidence corroborates the claim—that Popkov was
communicating with Gimbel about the arrest at least two days before it occurred
and knew about both Gimbel's desire to take his children to the football game on
September 11 and Andersen's refusal to acquiesce in that plan. That Popkov waited
to arrest Andersen until the afternoon of the day before Gimbel wanted the children
also plausibly supports Andersen's allegation that Popkov was cooperating with
Gimbel's alleged plan, as does the delay in processing Andersen until 7 p.m. that
evening. Both actions ensured that Andersen could not interfere with Gimbel's
alleged plan to take custody of the children on September 11
notwithstanding Andersen's objections. The complaint alleges, moreover, that
Popkov had decided before school was out (i.e., by midafternoon at the latest)
that Andersen would be detained overnight, further confirming that administrative
considerations did not animate that decision. Compl. 1 71. Andersen also alleges
that Popkov engaged in stalling tactics, "wasted [*29] time," mocked her while she
was in custody, and responded with a "twisted form of amusement" when she asked

A27

to call an attorney. Id. at ff 74, 229. Further, she alleges that Popkov was smiling
and socializing with Gimbel the next day at the bond hearing. There may, of course,
bear
on
that
the
reasonableness
of
be
many
other
facts
detaining Andersen overnight, but taking these facts as true, the complaint
plausibly alleges that Popkov needlessly extended Andersen's detention to assist
Gimbel's alleged ploy.
Popkov's reliance on the IDVA does not render Andersen's theory implausible.
Contrary to Popkov's assertion that "[t]he DVA required Det. Popkov to effectuate a
custodial arrest of Plaintiff," Village and Popkov's Memorandum in Support of
Motion to Dismiss at 17, there does not appear to be anything in the IDVA
requiring an officer to detain an offender overnight. While the statute contemplates
that an arrest may be appropriate to protect a victim of domestic violence, it
imposes no such requirement, much less a requirement to continue overnight the
detention attendant to an arrest. Further, the predicate for keeping Andersen in
custody overnight to prevent "further" abuse, neglect, [*30] or exploitation is
exceedingly weak on the present record and does not establish, as a matter of law,
that Popkov's actions were not motivated by animus and ill will—which is what
Popkov would have to show to defeat Andersen's unlawful detention theory. Popkov
arrested Andersen on charges based on a series of telephone calls
that Andersen had made, many of them more than a month earlier; and the
evidence supports a reasonable inference that there were no exigent circumstances
that required Andersen's overnight detention to resolve. Nor, one may plausibly
infer, was there a need to hold Andersen (who Popkov knew to be a licensed
attorney) to ensure her appearance in court. A Rule 12(b)(6) motion requires the
Court to take the facts alleged by the plaintiff as true, and Andersen's allegations
plausibly support her theory and directly contradict the Village's purported
justification under the IDVA. As such, this fact dependent theory cannot be rejected
at this juncture.

3. Fifth and Sixth Amendments: Right to Counsel
Set forth in Count VI but absent from the briefs of both parties are Andersen's
allegations that Popkov violated her Fifth and Sixth Amendment rights by refusing
to provide access to counsel while she was in police custody. [*31] Compl. %
221. Neither theory is viable here. The Sixth Amendment does not attach until the
initiation of adversarial criminal proceedings. Kirby v. Illinois, 406 U.S. 682, 689, 92
S. Ct. 1877, 32 L. Ed. 2d 411 (1972). After attachment, defendants have a right to
counsel only during "critical stages," i.e. "any stage of the prosecution, formal or
informal, in court or out, where counsel's absence might derogate from the accused's
right to a fair trial." United States v. Wade, 388 U.S. 218, 226, 87 S. Ct. 1926, 18 L.
Ed. 2d 1149 (1967). A custodial interrogation conducted before charging does not
violate a defendant's Sixth Amendment right to counsel. Moran v. Burbine, 475 U.S.

A28

412, 431-32, 106 S. Ct. 1135, 89 L. Ed. 2d 410 (1986); Watson v. Hulick, 481 F.3d
537, 542 (7th Cir. 2007) ("[I]nterrogation of a suspect before the filing of a charge,
without more, does not trigger the right to counsel."). Further, even if the right had
attached at some point after the interrogation, being held in custody is not, in and
of itself, a critical stage of a prosecution.
Andersen's Fifth Amendment theory also fails, because she concedes that she
waived her Miranda rights. Compl.
68. That she did not know she would be
questioned about potential felony charges is of no moment. See Colorado v. Spring,
479 U.S. 564, 573, 107 S. Ct. 851, 93 L. Ed. 2d 954, (1987) (rejecting claim that
waiver was invalid when officers did not inform suspect that they would question
him about a murder, as opposed to a firearm offense as he had assumed). And while
a suspect may invoke her Miranda rights after an initial waiver, [*32] an
invocation of Miranda's right to counsel requires only that the interrogation cease
until an attorney is present—not that counsel be summoned. Miranda v. Arizona,
384 U.S. 436, 474, 86 S. Ct. 1602, 16 L. Ed. 2d 694 (1966). Further, Andersen's
theory would fail even if Popkov had continued to question her, because a failure to
provide Miranda warnings does not itself give rise to liability under § 1983 if none
of the ensuing statements are introduced at trial. See Chavez v. Martinez, 538 U.S.
760, 767, 123 S. Ct. 1994, 155 L. Ed. 2d 984 (2003) (no Fifth Amendment violation
where statements made in violation of Miranda are not admitted as testimony
against defendant in a criminal case); Hanson v. Dane Cty., Wis., 608 F.3d 335, 339
(7th Cir. 2010) ("We know from Chavez v. Martinez . . . that interrogation that
yields incriminatory evidence never used in court does not support an award of
damages."); Sornberger v. Knoxville, 434 F.3d 1006, 1024-25 (7th Cir. 2006)
("After Chavez . . . violation of the Miranda safeguards cannot provide the basis for
§ 1983 liability without use of a suspect's statements against him in a 'criminal
case. ).
For these reasons, Andersen cannot plausibly assert that her arrest and detention
by Popkov violated her constitutional rights to counsel.

4. Fourth or Fourteenth Amendments: Familial Relations
In Count III, Andersen asserts that her detention violated her constitutional right
to familial relations (or in her terms, parent-child society). As Andersen points out,
the Due Process
Clause
of the Fourteenth Amendment "protects
the [*33] fundamental right of parents to make decisions concerning the care,
custody, and control of their children." Troxel v. Granville, 530 U.S. 57, 66, 120 S.
Ct. 2054, 147 L. Ed. 2d 49 (2000). Where, however, a particular Amendment
"provides an explicit textual source of constitutional protection . . . that
Amendment, not the more generalized notion of 'substantive due process,' must be
the guide for analyzing [the] claims." Graham v. Connor, 490 U.S. 386, 395, 109 S.

A29

Ct. 1865, 104 L. Ed. 2d 443 (U.S. 1989). Andersen's due process loss of custody
theory overlaps with her Fourth Amendment theory, at least to the extent that it
stems from her arrest and overnight detention. See Brokaw v. Mercer Cnty., 235
F.3d 1000, 1017 (7th Cir. 2000) (child's theory of interference with familial relations
was properly analyzed under the Fourth Amendment rather than as a deprivation
of substantive due process to the extent it was premised on his physical removal
from his home, because the Fourth Amendment "specifically addresses that
seizure"). And as the Court has concluded above that Andersen has a viable claim
arising from her overnight detention, it follows that she has also plausibly alleged
that her forced overnight separation from her children violated her Fourth
Amendment rights.
Andersen lost custody of her children not just overnight, however, but for 30 days.
She maintains that Popkov is responsible for that injury because he made false
statements about her mental health, [*34] which resulted in the bond court
removing the children from her custody pending completion of a mental evaluation
and further order of the family court—a period that did not end until the judge
presiding over the divorce case restored Andersen's custody rights 30 days later.
Popkov argues that this aspect of Andersen's theory is also governed by the Fourth
Amendment, not the Fourteenth, but the Seventh Circuit has long held that the
forced separation of parents and children implicates substantive due
process. Brokaw, 235 F. 3d at 1018; Hernandez ex rel. Hernandez u. Foster, 657 F.3d
463, 478 (7th Cir. 2011) ("The fundamental right to familial relations is an aspect of
substantive due process.").
The
analysis,
however,
is
essentially
the
same
under
either
Amendment. See Brokaw, 235 at 1019 (noting the balance of individual's interest in
familial relationship against state's interest in protecting children is the same
under the Fourth and Fourteenth Amendments). See also Wallis v. Spencer, 202
F.3d 1126, 1137 (9th Cir. 2000) ("[T]he same legal standard applies in evaluating
Fourth and Fourteenth Amendment claims for the removal of children . . .
."). Specifically, "a state has no interest in protecting children from their parents
unless it has some definite and articulable evidence giving rise to a reasonable
suspicion that a child has been abused or is in imminent danger of
abuse." [*35] Brokaw, 235 F.3d at 1019. Perhaps more importantly, procedural due
process requires that "government officials not misrepresent the facts in order to
obtain the removal of a child from his parents." Id. at 1020.
The problem with Andersen's argument, however, is that the complaint fails to
allege facts that give rise to a plausible inference that Popkov bears responsibility
for the court's entry of an order granting temporary custody of the children to
Gimbel. The complaint alleges only that the State's Attorney requested the mental
health evaluation and temporary loss of custody; as for Popkov's involvement, it
states only, on information and belief, that the State's Attorney was acting on
derogatory information she obtained from Popkov, Gimbel, and Kharasch. Compl. H
A30

91. In making that claim, Andersen is effectively asserting that Popkov made false
statements to the State's Attorney—that's an allegation of fraud, but Andersen fails
to provide the detail required by Rule 9(b). U.S. ex rel. Bogina v. Medline Indus.,
Inc., 809 F.3d 365, 370 (7th Cir. 2016) (allegations based on "information and belief'
are insufficient to satisfy Rule 9(b)'s particularity requirement). Andersen entirely
fails to describe the allegedly false information that Popkov told the State's
Attorney, so there is no basis from which it can [*36] plausibly be inferred that the
State's Attorney's request to the court regarding custody of the children was the
product of false information Popkov provided.
The Seventh Circuit has also held, however, that "[t]he general rule that fraud
cannot be pled based on information and belief is not ironclad . . . the practice is
permissible, so long as (1) the facts constituting the fraud are not accessible to the
plaintiff and (2) the plaintiff provides "the grounds for his suspicions." Pirelli
Armstrong Tire Corp. Retiree Med. Benefits Tr. v. Walgreen Co, 631 F.3d 436, 443
(7th Cir. 2011). Andersen was not privy to communications between Popkov and the
State's Attorney, of course, and it is fair to say that she has grounds to suspect that
Popkov—who she has plausibly alleged conspired with Gimbel to take her into
custody—provided derogatory information to the prosecutor about her mental
health. But even if Andersen's conclusory allegations in this regard are credited,
another obstacle remains: there is no basis to infer that information provided by
Popkov influenced the judge's decision to impose a bond condition
prohibiting Andersen from having contact with her children. In requesting that
condition, the Assistant State's Attorney told the judge that "we are asking that the
no contact actually [*37] includes the children as well. We are concerned for their
safety as well, given the defendant's mental state." Compl. Ex. 23 at 29:8-11.
When Andersen's attorney protested that "there's no factual basis to form an
opinion such as that. There's no allegation she ever harmed these children," id., the
State's Attorney pointed to Andersen's demeanor in court as warranting the
request, not to any information that the arresting officers or Gimbel had
provided. Id.; see also Compl. f 90 ("the State's Attorney pointed to Plaintiffs
demeanor to suggest that she was mentally unwell"). It is not as if the prosecutor
told the judge that the investigating officer, who had interviewed Andersen at
length, believed she was mentally ill; had that been the case, Andersen might have
a plausible basis to pin her loss of custody on Popkov. But that is not what
happened. Simply put, the judge heard nothing about Popkov's view of Andersen's
mental health, so that opinion could not have prompted the judge to put the
children in Gimbel's custody. The complaint therefore does not support liability
against Popkov for depriving Andersen of access to her children other than for the
period she was detained.

State [*38] Law: Defamation

A31

In Count I, Andersen similarly alleges that Gimbel defamed her by making false
and derogatory comments about her mental health "at the time of her arrest" in
September 2015.Compl. f 172. Her defamation theory, however, is untimely. In
Illinois, the statute of limitations for a claim premised on defamation is one year.
735 ILCS 5/13-201. Andersen did not file this case until July 14, 2017, almost two
years after her arrest. In her response to Gimbel's motion to
dismiss, Andersen argues that she "clearly states" that Gimbel continued defaming
her well after she was arrested. The Court cannot agree. The last instance of alleged
defamation referenced in the complaint occurred in November 2015, more than a
year before she filed suit, when Gimbel made comments about Andersen's mental
health to "unnecessary third parties." Compl. f 113. And while Andersen argues in
her brief that Gimbel made false statements during his continuing request for sole
custody, she does not allege those facts in the complaint. Finally, absent any other
facts, it would be unreasonable to infer from Andersen's success in keeping
witnesses from testifying about her mental health at trial that Gimbel was
continuing to [*39] make defamatory statements at that time. As alleged in the
complaint, Andersen's defamation theory is time-barred.

II. ANDERSEN'S IMPROPER PROSECUTION CLAIM
Andersen also asserts a claim arising from the facts relating to her prosecution on
charges of stalking and harassing Gimbel. While there is some overlap in the facts
relating to Andersen's arrest and detention and her subsequent prosecution—
specifically, the prosecution was initiated by the filing of a criminal complaint
against Andersen before she was released on bond—the course of the prosecution is
thereafter a distinct story and is alleged to have caused legal wrongs that are
distinct from the injuries Andersen alleges as the result of her arrest and detention.

Fourth or Fourteenth Amendment: "Federal" Malicious Prosecution
Count IX alleges that Popkov maliciously prosecuted Andersen in violation of either
the Fourth or Fourteenth Amendment. The Court must reject both theories because,
as the Seventh Circuit has repeatedly explained, "there is no free-standing
constitutional tort of malicious prosecution, though there are other constitutional
rights . . . that protect people against abusive arrests, fabrication of evidence,
etc." Hurt v. Wise, 880 F.3d 831, 843 (7th Cir. 2018), cert, denied, (U.S. Oct. 29,
2018) (citing Newsome v. McCabe, 256 F.3d 747 (7th Cir. 2001)). To [*40] the extent
that Andersen complained of such practices, they should and have been addressed
in the context of the specific constitutional rights that they implicate; a plaintiff
"must allege something else that does amount to a constitutional violation (even if
[she] calls it malicious prosecution)." Serino v. Hensley, 735 F.3d 588, 593 (7th Cir.
2013). And to the extent that Andersen is claiming that her prosecution itself

A32

violated either the Fourth or Fourteenth Amendment, her argument fails. "[T]here
is no such thing as a constitutional right not to be prosecuted without probable
cause," id., so the Fourth Amendment is not implicated. Nor can Andersen ground
in the Fourteenth Amendment an assertion that Popkov unconstitutionally
fabricated evidence because "an act of evidence fabrication doesn't implicate dueprocess rights unless the fabricated evidence is later used to deprive the criminal
defendant of her liberty in some way." Bianchi v. McQueen, 818 F.3d 309, 319 (7th
Cir. 2016) (citations omitted). Here, Andersen alleges that Popkov lied at the grand
jury hearing and at trial and fabricated a police report stating that Andersen had
breached the peace at a Starbucks in June 2016. But Andersen concedes that she
was released on bond and eventually acquitted. She does not state in her complaint
that any of these alleged fabrications caused a [*41] deprivation of
liberty. See Saunders—El v. Rohde, 778 F.3d 556 (7th Cir. 2015) (no viable evidence
fabrication claim where defendant was released on bond following arrest and
acquitted at trial). A federal malicious prosecution or fabrication of evidence theory
therefore fails on these facts.

State Law: Malicious Prosecution
Although there is no federal theory of malicious prosecution, Illinois does recognize
such a tort. To establish liability for malicious prosecution under Illinois law, a
plaintiff must allege facts showing 1) the commencement or continuance of an
original criminal proceeding by the defendant; 2) the termination of the proceeding
in favor of the plaintiff; 3) the absence of probable cause for such proceeding; 4) the
presence of malice, and 5) damages resulting to the plaintiff. Cairel v. Alderden, 821
F.3d 823, 834 (7th Cir. 2016). Because the Court has already found that probable
cause existed for the misdemeanor telephone harassment charge for
which Andersen was eventually tried, that charge cannot support a malicious
prosecution theory of liability. Andersen also alleges, however, that Popkov
maliciously prosecuted her for two counts of felony stalking and one count of felony
telephone harassment with intent to kill.
Popkov argues that [*42] Andersen's malicious prosecution theory must fail
because all of the felony charges were also supported by probable cause. He is
correct. The (now defunct) felony stalking statute prohibited "engaging] in a course
of conduct directed at a specific person [when an individual] knows or should know
that this course of conduct would cause a reasonable person to: 1) fear for his or her
safety or the safety of a third person; or 2) suffer other emotional distress." 720
ILCS 5/12-7.3(a)(2). Violations of the telephone harassment statute constitute
felonies rather than misdemeanors if "in the course of the offense, [the offender]
threatened to kill the victim." 720 ILCS 5/26.5-5(b)(4). Because Popkov does not
contend that Andersen failed to adequately allege the other elements of a malicious

A3 3

prosecution claim, the issue is whether those charges were supported by probable
cause.
That question can be answered easily. A grand jury indictment conclusively
establishes the existence of probable cause as to the charged crimes. See Kaley v.
United States, 571 U.S. 320, 328, 134 S. Ct. 1090, 188 L. Ed. 2d 46 (2014); United
States v. Schreiber, 866 F.3d 776, 781 (7th Cir. 2017). In Colbert v. City of Chicago,
851 F.3d 649, 655 (7th Cir. 2017) (applying Illinois law), the Seventh Circuit
affirmed the denial of a malicious prosecution claim against a police officer,
explaining:
The fact that [the plaintiff] was indicted [*43] by a grand jury defeats his
[malicious prosecution] claim. Noting that "a malicious prosecution action against
police officers" can often be "anomalous," we have explained, [T]he State's Attorney,
not the police, prosecutes a criminal action. It is conceivable that a wrongful arrest
could be the first step towards a malicious prosecution. However, the chain of
causation is broken by an indictment, absent an allegation of pressure or influence
exerted by the police officers, or knowing misstatements by the officers to the
prosecutor. Reed v. City of Chi., 77 F.3d 1049, 1053 (7th Cir. 1996) (emphasis
added). Thus, a plaintiff may not maintain a malicious-prosecution claim against an
arresting officer without first showing "some postarrest action which influenced the
prosecutor's decision to indict." Snodderly v. R.U.F.F. Drug Enforcement Task Force,
239 F.3d 892, 902 (7th Cir. 2001).
Andersen argues that Popkov's post-arrest misconduct is "unquestionably relevant
to rebut the presumption of probable cause raised by the grand jury indictment,"
Plaintiffs Response to Village and Popkov's Motion to Dismiss 11-12, ECF No. 45,
but she fails to explain how that alleged misconduct influenced the prosecutor's
decision to indict. Colbert v. City of Chicago, 851 F.3d at 655 (noting the plaintiffs
failure to show that officer's alleged post-arrest false statement
influenced [*44] prosecutor's actions). She points instead to Popkov's alleged failure
to preserve or produce exculpatory evidence, but that does not vitiate the legitimacy
of the grand jury's indictment because there is no requirement to present such
evidence to a grand jury in the first place. See, e.g., United States u. Williams, 504
U.S. 36, 51, 112 S. Ct. 1735, 118 L. Ed. 2d 352 (1992) ("requiring the prosecutor to
present exculpatory as well as inculpatory evidence would alter the grand jury's
historical role, transforming it from an accusatory to an adjudicatory body"); People
v. Beu, 268 Ill. App. 3d 93, 97-98, 644 N.E.2d 27, 30, 205 Ill. Dec. 811 (1994) ("the
prosecutor has no duty to present exculpatory evidence to the grand jury").
Similarly, to the extent that Andersen alleges that Popkov testified falsely before
the grand jury, false testimony before the grand jury cannot support a claim of
malicious prosecution because grand jury witnesses enjoy absolute immunity with
respect to their testimony. See Rehberg v. Paulk, 566 U.S. 356, 369, 132 S. Ct. 1497,
182 L. Ed. 2d 593 (2012) ("a grand jury witness [including a law enforcement officer]
A34

has absolute immunity from any § 1983 claim based on the witness'
testimony."); Barnes v. Martin, 2014 IL App (2d) 140095-U 57 (citing Rehberg and
holding that police officer was absolutely immune under state law from liability on
any claim to the extent it was predicated upon the officer's grand jury testimony).
The Court is constrained to note as [*45] well that Andersen's allegations about
Detective Popkov's grand jury testimony are demonstrably inaccurate (and
therefore need not be credited). She maintains, for example, that Popkov lied to the
grand jury by testifying that Andersen had threatened Gimbel in her voicemail
messages. Plaintiffs Response to Village and Popkov's Motion to Dismiss at 23. In
fact, Popkov testified that Andersen had left messages "of a threatening nature" on
August 2, 2015, and had subsequently called four separate departments at the
hospital where Gimbel was employed in an attempt to speak with Gimbel's
supervisor and had left multiple messages on the supervisor's phone demanding
that Gimbel be fired and threatening to sue the supervisor and the hospital. And
review of the recordings of Andersen's August 2 messages reflect that she did, in
fact, threaten to call Gimbel's supervisor to complain of Gimbel's harassment.
Popkov's testimony on this point was not misleading or inaccurate.
As a second example, Andersen's argument that Popkov testified in the grand jury
hearing that she threatened to kill Gimbel is simply wrong. Popkov testified
that Andersen left a voicemail message for Gimbel in which she
stated, [*46] "You're dead. You're dead." Review of the September 6 voicemail
messages left by Andersen confirms Popkov's account and that he did not further
characterize Andersen's statement, contrary to her argument.
A third example of Andersen's inaccurate characterizations of Popkov's statements
is too egregious to let pass without comment. Throughout her
briefs, Andersen argues that Popkov pursued stalking charges against her, even
though he did not believe that she was guilty of stalking. Putting aside that
Popkov's subjective belief about Andersen's guilt is irrelevant, Andersen's argument
is premised on a characterization of an email (Compl. Ex. 18) in which Popkov
advised Gimbel that evidence Andersen frequently showed up early to pick up the
kids on days when she was to have custody "most likely won't constitute stalking."
But the stalking complaint that Popkov signed, and his testimony in the grand jury,
was not premised on showing up early to pick up the children; rather, it was based
almost entirely on Andersen's telephone calls and voicemail messages. The notion
that Popkov "purposefully misled the grand jury . . . when he failed to disclose to
them that he did not believe that there [*47] was sufficient evidence to support a
stalking charge as shown in Complaint Exhibit 18," Compl. f 96, is baseless.
At bottom, the premise of Andersen's malicious prosecution argument is that the
grand jury is an adjudicatory body that should have all available information
available to it in assessing whether there is probable cause to indict. But that is
simply incorrect. Contrary to Andersen's assertion, "grand jury proceedings are not
A35

intended to approximate a trial on the merits." People v. Fassler, 153 Ill. 2d 49, 5960, 605 N.E.2d 576, 581, 178 Ill. Dec. 782 (1992). "It is axiomatic that the grand jury
sits not to determine guilt or innocence, but to assess whether there is adequate
basis for bringing a criminal charge." Williams, 504 U.S. at 51. And "[b]ecause a
grand jury does not determine guilt or innocence, it may pursue its investigation
unrestrained by the technical evidentiary and procedural restrictions that govern
criminal trials." Fassler, 153 Ill. 2d at 60, 605 N.E.2d at 581. That Andersen was
charged by a grand jury that did not have information that she believes to have
been exculpatory simply does not make the police officer who provided the
incomplete information liable for malicious prosecution.

III. THEORIES THAT SPAN ANDERSEN'S CLAIMS
Andersen also advances several theories of liability for conduct that spans
both [*48] her false arrest/unlawful detention claim and her malicious prosecution
claim. To minimize redundancy, the Court will address those theories together here.

Monell Liability
Andersen's claims against the Village of Glenview as described in Count XII fail.
Under Monell v. New York City Dept, of Social Services, local governments may not
be sued under § 1983 unless one of its policies caused the alleged constitutional
violation. 436 U.S. 658, 694, 98 S. Ct. 2018, 56 L. Ed. 2d 611 (1978). A "policy" may
exist in the form of either 1) an express policy that causes a constitutional
deprivation; 2) a widespread practice that, while not officially authorized, is "so
permanent and well settled as to constitute a custom or usage with the force of law";
or 3) an act of a person with "final policymaking authority." McTigue v. City of
Chicago, 60 F.3d 381, 382 (7th Cir. 1995).
Andersen argues that she states a plausible claim against the Village because she
alleged that it had an unofficial custom or practice of 1) allowing officers to lie under
oath and tamper with evidence (i.e., allowing the fabrication of evidence), and 2)
obstructing the production of exculpatory evidence. As an initial matter, the
allegations in the complaint fall well short of plausibly supporting the existence of
such policies. While Andersen alleges [*49] that there was another "scandal"
involving false statements by a Glenview police officers, pointing to a single other
comparable incident is generally regarded as insufficient to establish the existence
of a municipal policy. See Jackson v. Marion Cty., 66 F.3d 151, 152 (7th Cir. 1995)
(explaining that in the absence of direct evidence, "a single act of misconduct" does
not support an inference that an unconstitutional policy exists); Gill v. City of
Milwaukee, 850 F.3d 335, 344 (7th Cir. 2017) (dismissal of Monell claim affirmed
where plaintiff failed to plausibly allege that unconstitutional practice was

A36

widespread). It would be particularly inappropriate to make the leap of faith
necessary to justify such an inference here, where the complaint goes on to allege
that, far from ignoring the transgression, the Village disciplined the officer by firing
him. Compl. ^ 269. That scenario does not begin to support Andersen's allegations
that the Village has adopted unsavory policies and practices like encouraging its
police officers to commit perjury and fabricating evidence against criminal
defendants.
Beyond that problem, Andersen cannot state a claim for relief premised on
a Monell theory because "there can be no municipal liability based on an official
policy under Monell if the policy did not [*50] result in a violation of a plaintiffs
constitutional rights." Petty v. City of Chicago, 754 F.3d 416, 424-25 (7th Cir. 2014)
(citations omitted). Andersen cannot establish that the policies she identifies
(fabricating evidence and failing to produce exculpatory evidence) violated her due
process rights because, as addressed above, Andersen concedes that she was
released on bond and acquitted at trial. See Saunders—El, 778 F.3d at 561; Bianchi,
818 F.3d at 320 ("A [failure to produce exculpatory evidence] requires a showing of
prejudice, which can't be made here because the plaintiffs were acquitted.").
Andersen also appears to argue that, under the third Monell theory of municipal of
liability, persons with final policymaking authority took actions which violated her
constitutional rights. Specifically, Andersen alleges that Eric Patt, attorney for the
Village of Glenview, withheld exculpatory information and "was deliberately
indifferent" to Andersen's demands for competent investigation of the charges.
But Andersen has not adequately alleged that Patt has "final policymaking
authority" for Monell purposes. Indeed, she states only that Patt "sits as a regular
participant at the Village Board meetings" and "is consulted" by the Village
of Glenview. Compl. <][t|[ 271, 272. [*51] As the Seventh Circuit explained in Smith
v. Flaxman, a city attorney's authority to represent the city and its employees in
litigation "does not extend to an authority to create municipal policy." 962 F.2d 11
(7th Cir. 1992).
Finally, Andersen argues that the Village of Glenview attempted to "cover up"
Popkov's wrongdoings by 1) fabricating an arrest report in anticipation of civil
litigation and 2) hiring a law firm that specializes in false arrest/malicious
prosecution claims before Andersen's criminal prosecution was completed. Although
not addressed in the briefs, a single instance of a cover up directly engineered by a
municipality may be actionable. Jackson, 66 F.3d at 152. The facts alleged in the
complaint, however, do not support this theory of liability. First, Andersen does not
explain how filing a fake arrest report regarding a breach of peace at a Starbucks
constitutes any sort of "cover up," nor does she allege any facts connecting
a Glenview decisionmaker with "final authority to establish municipal policy" to the
report; indeed, she states only that Popkov and two other officers on the scene
manufactured the report. Compl. 1[ 146. Second, even if the law firm was hired by a
final decisionmaker (which Andersen does not [*52] allege), it would be more
A37

indicative of responsible preparation for civil litigation (which Andersen made clear
was forthcoming) than of wrongdoing; as explained in the Court's ruling
denying Andersen's motion to disqualify the attorneys hired, that the Village hired
lawyers to assist with its participation in the criminal case and to represent it in
the civil case is not at all probative of an effort to "cover up" Popkov's alleged
misconduct. The Court need not draw unreasonable inferences. Andersen's
conclusory allegation of a "cover up" therefore need not be accepted, and this aspect
of her claim is rejected. Accordingly, Andersen's claims against the Village are
dismissed.

Conspiracy Liability
Andersen alleges that Popkov and Gimbel conspired to falsely arrest and detain her
overnight (Count VII), deprive her of her right to a parent-child relationship (Count
IV), and maliciously prosecute her (Count X). It is somewhat unclear
whether Andersen's conspiracy liability theory is premised on federal or state law,
in
either
establish
underlying
but
case, Andersen must
the
violation. See Indianapolis Minority Contractors Ass'n, Inc. v. Wiley, 187 F.3d 743,
754 (7th Cir. 1999) ("[T]he absence of any underlying violation of the plaintiffs'
rights precludes the possibility [*53] of their succeeding on [a federal] conspiracy
count."); Weber v. Cueto, 253 Ill. App. 3d 509, 624 N.E.2d 442, 449, 191 Ill. Dec. 593
(Ill. App. Ct. 1993) (" [Conspiracy, standing alone, is not a separate and distinct tort
in Illinois."). Andersen's theories that Gimbel and Popkov conspired to falsely arrest
her and to maliciously prosecute her therefore fail on these facts because, as
explained above, Andersen has not established the underlying violations. As for the
aspects of Count IV and Count VII alleging conspiracy to unreasonably
detain Andersen overnight and deprive her of custody of her children for that time
(the only remaining theory), the Court infers from her reliance on Gardunio, 674 F.
Supp. 2d at 986, 985-986, that she intends to assert that theory under § 1983.
To hold a private individual liable under § 1983, Andersen must establish that 1) a
state official and private individual reached an understanding to deprive plaintiff of
her constitutional rights, and 2) the private individual was a willful participant in
joint activity with the State or its agents. Logan v. Wilkins, 644 F.3d 577, 583 (7th
Cir.2011). Conspiracies may be demonstrated with circumstantial evidence, but
mere conjecture is insufficient to state a claim. Beaman v. Freesmeyer, 776 F.3d 500,
511 (7th Cir. 2015).
The only argument advanced by the defendants in support of their challenges
to Andersen's
conspiracy
theory
is
that
the
complaint
fails
to
adequately [*54] allege that Popkov and Gimbel "reached an understanding" or had
an agreement to unreasonably detain her. With respect to Andersen's contention
that she was detained overnight unlawfully, the Court concludes—for the reasons

A38

set forth above—that she has. Most significantly, Gimbel told Popkov that "[it's]
going to be interesting on Friday if barb is not arrested," plausibly implying that
they planned the timing of Andersen's arrest and detention together. Compl. Ex. 20.
Further, Popkov allegedly knew that Gimbel wanted greater custody rights. And, by
alleging that Gimbel bragged about using his connections with the Police
Department to harass her, Andersen also adequately established that he was a
willful participant. These facts suffice to permit a plausible inference that Gimbel
was in league with Popkov, and accordingly, Andersen has stated a plausible claim
for relief against both Popkov and Gimbel arising from her unlawful detention and
premised on the legal theory of conspiracy.

Intentional Infliction of Emotional Distress
Finally, Andersen asserts that Kharasch, Gimbel, and Popkov are each liable for
intentional infliction of emotional distress ("IIED"). Under Illinois law, a
plaintiff [*55] establishes liability for IIED by showing that "1) the defendant's
conduct was extreme and outrageous, 2) the defendant intended to inflict severe
emotional distress or knew that there was at least a high probability that his
conduct would inflict severe emotional distress, and 3) the defendant's conduct did
cause severe emotional distress."Naeem v. McKesson Drug Co., 444 F.3d 593, 605
(7th Cir. 2006). Conduct is not extreme and outrageous unless it goes "beyond all
bounds of decency" and is "considered intolerable in a civilized community." Fox v.
Hayes, 600 F.3d 819, 842 (7th Cir. 2010) (citations omitted).

1. Kharasch
The Court can easily dispose of Andersen's claim against Dr. Kharasch. Count II
alleges that Kharasch committed the tort of IIED by intentionally spreading
derogatory and defamatory comments about her mental health with the knowledge
that his position as chief of emergency medicine would lend him
credibility. Kharasch, in response to questioning, allegedly told the Glenview Police
Department that Andersen "was mentally ill" in hopes that she would be arrested
and prosecuted. Compl. ^ 53. Even taken as true, this one statement—by the
recipient of phone calls from Andersen complaining about Gimbel's conduct—made
on one occasion is plainly not sufficient to constitute "extreme [*56] and
outrageous" conduct. "Under Illinois law, liability for intentional infliction of
emotional distress has been found only where the conduct has been so outrageous in
character, and so extreme in degree, as to go beyond all possible bounds of human
decency." Cook v. Winfrey, 141 F.3d 322, 331 (7th Cir. 1998) (collecting cases where
Illinois courts dismissed defamation based IIED claims and affirming district
court's finding that it was not extreme and outrageous to make false statements

A3 9

about plaintiff). A single unadorned statement of opinion that another is mentally
ill—which is all the complaint alleges—does not rise to that level.
Andersen's citation to Feltmeier v. Feltmeier, 207 Ill. 2d 263, 798 N.E.2d 75, 278 Ill.
Dec. 228 (2003) in support of her argument that Kharasch abused his power does
not save her claim. In Feltmeier, the Illinois Supreme Court upheld a claim by a
wife against her abusive husband and acknowledged that successful IIED claims
frequently involve defendants who stand in a position of power relative to the
plaintiff. Id. at 273. It explicitly referenced, however, "the degree of power or
authority which a defendant has over a plaintiff' and cited IIED cases brought by
employees
against
their
employers
or
debtors
against
their
creditors. Id. (citing McGrath v. Fahey, 126 Ill.2d 78, 86-87, 533 N.E.2d 806, 127 Ill.
Dec. 724 (1988) (emphasis added). Andersen has not alleged that [*57] Kharasch
has any power or authority over her. To the contrary, she repeatedly states that she
has no relationship with him whatsoever. For those reasons, the Court dismisses
the IIED claim against Kharasch. As Count II was the only count Andersen directed
against Kharasch, he is accordingly dismissed from the case.

2. Detective Popkov
Andersen alleges that Popkov is liable for IIED because he made derogatory
comments about her mental health in lieu of engaging in a good faith interrogation
and aided Gimbel in his quest to obtain sole custody of the children by initiating
criminal charges against Andersen. As noted above, the complaint fails to describe
with particularity any statements Popkov made about Andersen's mental health,
but putting that issue to the side, Andersen's IIED theory fails because it is barred
by the Illinois Tort Immunity Act, which requires plaintiffs to bring civil actions
against local government employees within one year of the date the cause of action
accrued. 745 ILCS 10/8-101. The Seventh Circuit, analyzing Illinois law, has held
that "a claim of intentional infliction of emotional distress in the course of arrest
and prosecution accrues on the date of the arrest." Bridewell v. Eberle, 730 F.3d
672, 678 (7th Cir. 2013). The [*58] Bridewell court, relying on its prior decision
in Evans v. Chicago, 434 F.3d 916, 934 (7th Cir. 2006), explained that the tort of
IIED is not a continuing wrong.
Andersen, who filed her complaint more than a year after her September 2015
arrest, argues that her IIED claim did not accrue until the conclusion of the
litigation. In support of her position, she points to the Illinois Supreme Court's
2003 Feltmeier decision, which held that the tort of IIED should be treated as a
continuing wrong, and that a claim will not accrue until the date of the last injury
suffered or when the tortious acts cease. 207 Ill. 2d at 284. Feltmeier is
distinguishable, however, as it involved a continuous course of conduct by a
husband against his spouse rather, than as here, a discrete arrest by a police

A40

,

officer. The Feltmeier court took pains, moreover, to explain that continuing ill
effects from an initial act does not serve to extend the statute of limitations under
the "continuing wrong" theory. Id. at 278 ("A continuing violation or tort is
occasioned by continuing unlawful acts and conduct, not by continual ill effects from
an initial violation."). And that is what Andersen alleges, at least as to Popkov:
continuing emotional distress based on what she claims to have been his [*59] role
in her unlawful arrest and the initiation of false charges against her. The complaint
contains no allegations that Popkov orchestrated the prosecution in the year before
she filed this law suit, so there is no basis on which to infer that Andersen's distress
was anything other than the continuing ill effects of Popkov's prior
conduct. See Bridewell, 730 F.3d at 678 ("The idea that failing to reverse the
ongoing effects of a tort restarts the period of limitations has no support in Illinois
law—or in federal law either."); see also Friends-Smiley v. City of Chicago, 16-CV5646, 2016 U.S. Dist. LEXIS 144657, 2016 WL 6092637, at *2 (N.D. Ill. Oct. 19,
2016) (collecting cases in which courts in this district have held that IIED claims
against police officers accrue on the day of arrest even when intertwined with
malicious prosecution claims). Accordingly, to the extent that Andersen's claim
against Popkov is premised on an IIED theory, it is untimely as pleaded.

3. Gimbel
Andersen's IIED theories against Gimbel in Count II and Count XI arise from
Gimbel's defamatory comments about Andersen's mental health to the police and
third parties, his efforts to have Andersen arrested and prosecuted, his requests to
the State's Attorney that Andersen's mental health be evaluated, his
refusal [*60] to drop frivolous criminal charges, and his attempt to provoke
violations of a no contact bond order so that bond would be revoked. Gimbel argues
that none of this alleged conduct is "extreme and outrageous," correctly noting that
there is a "high bar for the type of conduct which will create liability." Chang Hyun
Moon v. Kang Jun Liu, 2015 IL App (1st) 143606, 398 Ill. Dec. 722, 44 N.E.3d 1134,
1143 (Ill. App. Ct. 2015). Illinois courts, however, have noted that a defendant's
conduct must be assessed in view of all the facts and circumstances pleaded and
that "[a] pattern, course, and accumulation of acts can make an individual's conduct
sufficiently extreme to be actionable, whereas one instance of such behavior might
not be." Feltmeier, 207 Ill. 2d at 274 (citing McGrath, 126 Ill.2d at 86-87 and Pavlik
v. Kornhaher, 326 Ill.App.3d 731, 746, 761 N.E.2d 175, 260 Ill. Dec. 331 (2001)). The
bar is high, but Andersen has cleared it in adequately alleging that Gimbel engaged
in a campaign to have her falsely arrested and prosecuted so that she would lose
custody over her children—surely a scenario that, if proven, qualifies as extreme
and outrageous. The Court finds that Andersen's claims against Gimbel are
actionable on a theory of intentional infliction of emotional distress.
* * *

A41

■r -y

To recap: Andersen has failed to state any claim against Dr. Kharasch or the
Village of Glenview, so the Court grants their motions to dismiss the complaint. As
for [*61] Detective Popkov, Andersen has stated a viable claim arising from her
overnight detention based on her Fourth Amendment unreasonable detention and
deprivation of familial relations theories, and her corresponding theories of
conspiracy liability. Popkov's motion to dismiss is therefore denied as to that claim.
It is granted, however, as to Andersen's claim based on her subsequent prosecution.
Finally, based on IIED and conspiracy, Andersen has stated viable claims against
Gimbel arising from the facts comprising her arrest and overnight detention claim
and those comprising her improper prosecution claim. Accordingly, Gimbel's motion
to dismiss the complaint for failure to state a claim is denied. All dismissals are
without prejudice but, because fact discovery has been completed, further
consideration of any of the dismissed claims, or rejected theories, will occur in the
context of a summary judgment motion or other pretrial motions in limine. A status
hearing will be held on December 12, 2018, at 9:00 a.m. to discuss the scheduling of
expert discovery and any further motion practice.
/s/ John J. Tharp, Jr.
John J. Tharp, Jr.
United States District Judge
Date: November 28, 2018

•

•

•

Footnotes
The truth of facts alleged in the complaint are presumed true for purposes of this
motion. Zemeckis v. Global Credit & Collection Corp., 679 F.3d 632, 634 (7th Cir.
2012). They are supplemented where indicated with information included in
exhibits to the motion of defendants Popkov and the Village of Glenview, which are
properly considered by the Court for the reasons set forth in the discussion
of Andersen's motion to strike, infra p. 7-8.
Andersen seems to allege that she would not have signed the waiver had she known
she was in custody for a potential felony charge. Popkov, however, was under no
constitutional obligation to inform her of the specific reason for her
arrest. See Devenpeck v. Alford, 543 U.S. 146, 155, 125 S. Ct. 588, 160 L. Ed. 2d 537
(2004) ("While it is assuredly good police practice to inform a person of the reason
for his arrest at the time he is taken into custody, we have never held that to be
constitutionally required.").
In 2014, Gimbel had filed a complaint against Andersen for destroying a phone he
had purchased for one of the children. Compl.
22. Andersen was not formally
charged with destruction of personal property at that time or at any time during the
underlying criminal case at issue here. Id. at 'll'll 62, 89.

A42

- >

•

The e-mail also instructs Gimbel to create a list of incidents which could
show Andersen's mental state and that "[s]ome aspects of the incidents probably
would be criminal in nature, which will be dealt with through criminal court,
however the vast majority of the incidents would most likely serve you best in your
civil case." Compl. Ex. 18.
• In addition, Andersen alleges that Popkov fabricated an arrest report for disturbing
the peace the following year after the two had a verbal altercation at a local
Starbucks. Compl. at f 146. Andersen reported the event to a superior at the Police
Department who explained that it was "not actually an arrest report" and that
Popkov was instructed to avoid Andersen.
• According to the Village and Detective Popkov, the "intent to kill" aspect of the
charge arose from the September 6 voicemail in which Andersen stated, "you're
dead, you're dead." Village's Memorandum in Support of Motion to Dismiss at Ex. 1.
• Andersen filed the complaint in the Circuit Court of Cook County. The defendants
removed the case to this Court based on federal question jurisdiction.
• Andersen makes no argument regarding the videotape except for her general
proposition that extrinsic evidence should not be considered on a motion to dismiss.
Because the videotape of the interrogation is referenced in the complaint, central to
her claims, and concededly authentic, the motion to strike that exhibit is denied.
• Andersen's complaint alleges that Gimbel re-named and re-formatted the original
audio files. Compl. at 55. It does not allege that the content of the files was
altered.
• The defendants do not argue that the police reports are subject to the public records
hearsay exception, Fed. R. Evid. 803(8), presumably because the exception applies
only if "the opponent does not show that the source of information or other
circumstances indicate a lack of trustworthiness." Here, Andersen maintains that
Popkov's report is inaccurate and the Court must accept that truth of that assertion
in the context of a motion to dismiss. The Court's ruling in the context of this
motion to dismiss, however, does not preclude the defendants from seeking the
admission of these records at trial.
• Plaintiffs 273 paragraph complaint pushes the boundaries of what may be
considered a "short plain statement" of her claims.
•

•

Andersen also advanced a state law false arrest theory against Popkov in Count V
but conceded in her brief that it was time barred. Plaintiffs Response to Village and
Popkov's Motion to Dismiss at 3.
This is not to say that the viability of other legal theories has no relevance in other
contexts. Ultimately, the plaintiff must identify and rely on specific legal theories,
the sufficiency of which is tested on summary judgment and/or at trial. See BBL,
809 F.3d at 325 ("Summary judgment is different. The Federal Rules of Civil
Procedure explicitly allow for '[p]artial [s]ummary judgment' and require parties
to 'identif[y] each claim or defense—or the part of each claim or defense—on which
summary judgment is sought.'"). The viability of a particular theory may also affect

A43

• '*

•

•

•

•

the scope of discovery and may therefore be appropriately considered in that
context.
Andersen also makes a cursory allegation that Popkov violated the First
Amendment by arresting her in retaliation for her demands that "the cronyism
between the Glenview Police Department and [Gimbel] cease." Compl. at % 222.
While neither the defendants nor Andersen explicitly address this allegation in
their briefs, the defendants appear to argue that Andersen's false arrest retaliation
theory should be barred by qualified immunity. This Court agrees. Qualified
immunity shields a police officer from civil damages unless the officer violated a
constitutional right that was clearly established at the time of the challenged
conduct. Ashcroft v. al-Kidd, 563 U.S. 731, 735, 131 S. Ct. 2074, 179 L. Ed. 2d 1149
(2011). As the Seventh Circuit held in Thayer v. Chiczewski, "neither our circuit nor
the Supreme Court has recognized a First Amendment right to be free from a
retaliatory arrest that is supported by probable cause." 705 F.3d 237, 253 (7th Cir.
2012) (citations omitted). Accordingly, to the extent that Andersen asserts that her
claim can proceed on a First Amendment retaliation theory, that theory also fails as
a matter of law.
The Village also argues that "any claim based on Plaintiffs detention should accrue,
at the very latest, when the detention ends" and is therefore time barred. Village
and Popkov's Reply Brief 17, ECF No. 62. The Court rejects this argument out of
hand. Contrary to the Village's assertion, Andersen filed her complaint in July
2017, within 2 years of when she was released from custody in September 2015, as
required by the statute of limitations for § 1983 actions in Illinois.
Popkov does not make a qualified immunity argument in connection
with Andersen's overnight detention (as opposed to the loss of familial relations
theory), so it is waived. The Court is also unwilling to apply the doctrine of qualified
immunity at this stage because it is clearly established (see County of Riverside,
supra) that arrestees may not be detained for improper purposes.
It is not completely clear which Amendment provides the proper avenue for
challenging bond conditions which interfere with familial relationships. In Brokaw,
the Seventh Circuit addressed post-seizure forced separation under the due process
clause, noting authority holding that the Fourth Amendment ceases to apply after a
probable cause hearing. Id. at 1018 n.14. The Supreme Court, however, expressly
rejected that reasoning in Manuel v. City of Joliet, 137 S. Ct. 911, 917-8, 197 L. Ed.
2d 312 (2017), where it held that the Fourth Amendment is the appropriate
framework for assessing pretrial deprivations of liberty, even where the alleged
deprivation
occurs
after
the
legal
process
commences. But
both Brokaw and Manuel involved claims by individuals who themselves were
physically seized; as far as this Court can tell, neither the Supreme Court nor the
Seventh Circuit has addressed whether a criminal defendant has Fourth
Amendment standing to challenge a condition of pretrial release which orders a
child to be removed from their custody. In other words, it is not clear that the bond
condition in question constitutes a "seizure." On one hand, the Seventh Circuit has
stated that "interference with the parental right to 'care, custody, and control'
A44

•

•

•

•

•

ordinarily is measured through the objective lens of the Fourth Amendment. Terry
v. Richardson, 346 F.3d 781, 785 (7th Cir. 2003). On the other hand, it has also
cited with approval the First Circuit's holding that "run-of-the-mill conditions of
pretrial release ... do not constitute Fourth Amendment seizure." Alexander v.
McKinney, 692 F.3d 553, 557 n.2 (7th Cir. 2012) (quoting Harrington v. City of
Nashua, 610 F.3d 24, 2-3 ,(1st Cir. 2010). Because the choice of applicable provision
does not change the outcome of the Court's analysis, it is not necessary here to
attempt to resolve this question.
Popkov argues that Andersen's pretrial release conditions theory is barred by his
probable cause to arrest her. That argument fails. Probable cause to arrest does not
necessarily equate to probable cause to deprive a parent of custody of their children;
to the extent that courts analyze probable cause in the context of custody
determinations, they look to whether the state actor had probable cause to believe
that the children faced an immediate threat of abuse, not to whether the defendant
committed some crime. Siliven v. Indiana Dep't of Child Serus., 635 F.3d 921, 927
(7th Cir. 2011). And for reasons already discussed, supra at 19-21, the Court is
unpersuaded by the Village's argument that the Illinois Domestic Violence Act
required Popkov to protect Andersen's victims. While it does require courts to enter
no contact orders with the victim, none of the parties have suggested that the
children were victims of Andersen's telephone harassment.
Andersen is correct that timeliness is typically an affirmative defense not addressed
on a 12(b)(6) motion. However, as addressed above, where the complaint itself
establishes the defense, it is not improper for a court to dismiss it on those grounds.
Andersen incorporates into her complaint an e-mail from Gimbel which she says
was sent after the alleged defamation. The e-mail is dated November 5, 2015.
Compl. Ex. 33.
The prosecution must be distinguished from Andersen's overnight detention, which
(as has been discussed above) is actionable under the Fourth Amendment. In that
regard, "the wrong is the detention rather than the existence of criminal
charges." Manuel v. City of Joliet, Illinois, 903 F.3d 667, 670 (7th Cir. 2018).
Providing false testimony would not give rise to a due process claim for two
additional reasons. First, "[t]he Constitution does not require that police
testify truthfully, rather the constitutional rule is that the defendant is entitled to a
trial that will enable jurors to determine where the truth lies." Saunders-El v.
Rohde, 778 F.3d 556, 562 (7th Cir. 2015) (emphasis in original; internal quotation
marks omitted). Second, witnesses are immune from civil liability. Canen v.
Chapman, 847 F.3d 407, 415 (7th Cir. 2017) ("witnesses enjoy absolute immunity . .
. and we have acknowledged that this protection covers the preparation of testimony
as well as its actual delivery in court"); Curtis v. Bembenek, 48 F.3d 281, 283-85 (7th
Cir. 1995) (police officers have absolutely immune from liability for false testimony
at preliminary hearings where probable cause is assessed); Kincaid v. Eberle, 712
F.2d 1023, 1023 (7th Cir. 1983) (per curiam) (grand jury witnesses enjoy same
immunity from civil liability as do trial witnesses).

A45

•

•

•
•

•

•

The Court notes that the proceedings were terminated in Andersen's favor. The
State nolle prossed the two felony charges on July 18, 2016 in light of a June 2016
Illinois Appellate Court ruling striking down the stalking statute as
unconstitutional. See People v. Relerford, 2016 IL App (1st) 132531, 404 Ill. Dec.
505, 56 N.E.3d 489 (Ill. App. Ct. 2016) (holding that the statutes violated .
substantive due process because they permitted conviction based on negligence); see
also People v. Relerford, 2017 121094, 2017 IL 121094, 422 Ill. Dec. 774, 104 N.E.3d
341 (rejecting the appellate court's holding but affirming on the basis that the
statute violated the First Amendment right to free speech). Illinois law provides
that "a nolle, prosequi dismissal terminates a proceeding in favor of the accused
unless the abandonment is for reasons not indicative of the innocence of the
accused." Logan v. Caterpillar, Inc., 246 F.3d 912, 925 (7th Cir. 2001). Given that it
would be impossible for Andersen to be found guilty under an unconstitutional
statute, the nolle prosequi was indicative of her innocence. The state also reduced
the felony telephone harassment with intent to kill charge to a misdemeanor,
allegedly to avoid Andersen's motion to dismiss. That allegation, taken as true,
makes it at least plausible that the state knew that Andersen did not have an intent
to kill and therefore adequately establishes termination in her favor.
In White v. City of Chicago, 829 F. 3d 837, 844 (7th Cir. 2016), the court found that
the plaintiff adequately alleged a widespread practice even though he had not
identified "every other or.even one other individual" who had been subjected to the
complained-of process. But, in addition to his allegations, the plaintiff also provided
direct evidence in the form of a written document that illustrated the practice. It is
therefore not inconsistent with White to conclude that bare allegations of a
widespread policy (without more) are insufficient to survive a 12(b)(6) motion to
dismiss.
In light of the Village's dismissal from this case, its motion to bifurcate and
stay Monell discovery, ECF No. 112, is denied as moot.
These claims are not barred by the Illinois Tort Immunity Act because they do not
arise under the common law, statutes or Constitution of Illinois. 745 ILCS 10/8101(c).
Andersen initially asserted that Kharasch's comment also gave rise to liability for
defamation, but later acknowledged that a claim premised on defamation would be
untimely and voluntarily dismissed Count I of the complaint as to
Karasch. Andersen's Motion to Voluntarily Dismiss Count I Against Defendant
Morris Kharasch, ECF No. 66. Accordingly, the Court does not address that theory
here.
The only other potentially relevant case from within this circuit that Andersen cites
is Rusinowski v. Village of Hillside, 835 F. Supp. 2d 641,' 656 (N.D. Ill. 2011), which
involved a "malicious campaign," not a single false statement. Further, Andersen's
argument that Kharasch violated the "Mental Health and Developmental
Disabilities Confidentiality Act" is completely without merit. The Act protects only
recipients of mental health services, and Andersen repeatedly states that she was
A46

•
•

not Dr. Kharasch's patient. Her request for leave to assert a claim under the Act is
accordingly denied.
As the Court has dismissed Kharasch from the case, his Motion for Summary
Judgment, ECF No. 200, is denied as moot.
Andersen also relies on Parish v. City of Elkhart, 614 F.3d 677, 683 (7th Cir. 2010),
which held that an Indiana plaintiffs IIED claim did not accrue until his conviction
was overturned. The Court stated that, under Indiana law, if the tort continued
through the point of conviction and would directly implicate the validity of the
conviction (i.e, would only have been proper to assert while the conviction was still
outstanding if brought through post-conviction relief channels), the claim would not
accrue until the conviction had been disposed of in a manner favorable to the
plaintiff. Because that case involved Indiana law and a wrongful conviction, it is
inapposite to the case at bar.

Andersen v. Vill. of Glenview, No. 17-CV-05761, 2018 U.S. Dist. LEXIS 201642, at
*1 (N.D. Ill. Nov. 28, 2018)

A47

